<html>
<title> - THE THIRTY-FIFTH ANNIVERSARY OF THE CLEAN WATER ACT: SUCCESSES AND FUTURE CHALLENGES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      THE THIRTY-FIFTH ANNIVERSARY
                        OF THE CLEAN WATER ACT:
                    SUCCESSES AND FUTURE CHALLENGES

=======================================================================

                                (110-81)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
38-565 PDF                  WASHINGTON : 2007
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Eichmiller, Linda, Executive Director, Association of State and 
  Interstate Water Pollution Control Administrators..............    12
Grumbles, Hon. Benjamin H., Assistant Administrator for Office of 
  Water, United States Environmental Protection Agency...........    12
King, Jr., James, President, Dekalb Pipeline, on Behalf of 
  National Utility Contractors Association.......................    31
Lehner, Peter, Executive Director, Natural Resources Defense 
  Council........................................................    31
MacBride, Derry, Chairman, Garden Clubs of America, National 
  Affairs and Legislation Committee..............................    31
Novak, Hon. Kathleen M., Mayor, City of Northglenn, Colorado.....    12
Paap, Kevin, President, Minnesota Farm Bureau, on Behalf of 
  American Farm Bureau Federation................................    31
Singleton, Mark, Executive Director, American Whitewater, on 
  Behalf of Outdoor Alliance.....................................    31
Westhoff, Christopher, Assistant City Attorney, Public Works, 
  General Counsel, City of Los Angeles, California, on Behalf of 
  National Association of Clean Water Agencies...................    31
Woodley, Jr., Hon. John Paul, Department of the Army, Assistant 
  Secretary of the Army for Civil Works..........................    12

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    57
Carney, Hon. Christopher P., of Pennsylvania.....................    58
Cohen, Hon. Steve, of Tennessee..................................    62
Costello, Hon. Jerry F., of Illinois.............................    63
Mitchell, Hon. Harry E., of Arizona..............................    66
Walz, Hon. Timothy J., of Minnesota..............................    69
Young, Hon. Don, of Alaska.......................................    71

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Eichmiller, Linda................................................    72
Grumbles, Hon. Benjamin H........................................    75
King, James......................................................   151
Lehner, Peter....................................................   157
MacBride, Derry..................................................   181
Novak, Hon. Kathleen.............................................   184
Paap, Kevin......................................................   188
Singleton, Mark..................................................   193
Westhoff, Christopher M..........................................   202
Woodley, Jr., Hon. John Paul.....................................   237

                       SUBMISSIONS FOR THE RECORD

Grumbles, Hon. Benjamin H., Assistant Administrator for Office of 
  Water, United States Environmental Protection Agency, 
  ``Conserving America's Wetlands 2007: Three Years of Progress 
  Impementing the President's Goal,'' Council on Environmental 
  Quality, April 2007............................................    89
Westhoff, Christopher, Assistant City Attorney, Public Works, 
  General Counsel, City of Los Angeles, California, on Behalf of 
  National Association of Clean Water Agencies, ``Recommendations 
  for a Viable and Vital 21st Century Clean Water Policy,'' NACWA 
  Strategic Watershed Task Force, October 18, 2007...............   212

                        ADDITIONS TO THE RECORD

American Council of Engineering Companies, written statement.....   247
American Road and Transportation Builders Association, written 
  statement......................................................   250
American Society of Civil Engineers, written statement...........   259
Texas Institute for Applied Environmental Research, Ron Jones, 
  Director, written statement....................................   266
Waters Advocacy Coalition, written statement.....................   272
The Western Coalition of Arid States, written statement..........   279

[GRAPHIC] [TIFF OMITTED] T8565.001

[GRAPHIC] [TIFF OMITTED] T8565.002

[GRAPHIC] [TIFF OMITTED] T8565.003

[GRAPHIC] [TIFF OMITTED] T8565.004

[GRAPHIC] [TIFF OMITTED] T8565.005

[GRAPHIC] [TIFF OMITTED] T8565.006

[GRAPHIC] [TIFF OMITTED] T8565.007



 HEARING ON THE 35TH ANNIVERSARY OF THE CLEAN WATER ACT: SUCCESSES AND 
                           FUTURE CHALLENGES

                              ----------                              


                       Thursday, October 18, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:50 a.m., in Room 
2167, Rayburn House Office Building, the Honorable James L. 
Oberstar [Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order.
    Before we undertake the hearing, there is a short business 
session we need to attend to, and that is to appoint the 
gentlewoman from California, Ms. Richardson, to Subcommittees. 
I ask unanimous consent to appoint Ms. Richardson to three 
existing majority vacancies on the following three 
Subcommittees, those that were held by her predecessor, Ms. 
Millender-McDonald: the Subcommittee on Aviation, the 
Subcommittee on Coast Guard and Maritime Transportation, and 
the Subcommittee on Highways and Transit.
    In pursuance of this, I circulated a letter among the 
Members on the majority side, asking their concurrence or their 
questions or concerns, and we had a complete consensus of 
support for this initiative; and, if there is no objection, it 
is so ordered.
    The purpose of today's meeting is to celebrate, by looking 
back and looking forward, on the 35th anniversary of the Clean 
Water Act, to take stock on our how environmental initiatives 
have unfolded in the years since that legislation was enacted 
in 1972, and also to remind ourselves of the task that lies 
ahead. The job of legislation is never complete. We must always 
be engaged in the process, not only of fashioning the 
legislation, holding the hearings, of moving legislation, 
conference with the other body, signature by the President or, 
in the case of the Clean Water Act, overriding a veto, and then 
overseeing the implementation of that legislation. That is an 
unending journey.
    And beginning this process, I just take recognition of, 
acknowledgment of my predecessor, whose portrait hangs in the 
corner of this room, John Blatnik, who was elected in 1946 in a 
class, if you will, that was post-World War II, the first 
election to Congress following World War II, in a class that 
included John F. Kennedy and Richard Nixon, as well as Robert 
M. Jones, Bob Jones of Alabama, Democrat, along with John 
Blatnik and, I think, 40 or so new Members of Congress.
    It is intriguing that both Nixon and Kennedy went on to be 
president of the United States and John Blatnik, who served 
behind Nazi lines in what is today Slovenia, rescuing American 
airmen shot down on the return bombing runs from Ploiesti oil 
fields of Romania, spent 18 months living in barns, haystacks, 
and recovering mostly American airmen, but also British, came 
home and then ran for Congress. He had served in the State 
Senate. He was a microbiologist, and in 1955 he became Chairman 
of the Subcommittee on Rivers and Harbors, a Subcommittee on 
which I started my service in the Congress in 1963 as a clerk 
on the Subcommittee on Rivers and Harbors, the oldest Committee 
of the Congress.
    And in pursuance of his new role as Subcommittee Chairman, 
he engaged the Corps of Engineers to make an excursion down the 
Mississippi River and the Ohio and Illinois River systems to 
observe the works of the Corps and the needs of navigation and 
the responsibilities that would lie ahead of him and of this 
Committee. And while they observed navigation, they saw the 
locks and they saw the need for improvements, what caught John 
Blatnik's attention was the discharges of pollutants, of the 
debris of the jetsam and flotsam moving down the Ohio and the 
Illinois and the Mississippi, all converging the waste and the 
discharges from 11 States by the time they reached New Orleans. 
He said, at that point there were raw phenols bubbling in the 
waters and that each State they passed, the condition of the 
river, the condition of the water became worse. He resolved 
that. Whatever else that was needed to be done by this 
Committee, cleaning the Nation's water had to be the 
Subcommittee's top priority.
    So he fashioned, with Bob Jones from Alabama, an idea for a 
three-part program: one, research and development. As a 
scientist, he placed high store on gathering fact and 
understanding what would be the limiting factors, what 
elements, if you take them out of the waste stream, if you 
remove them from the receiving waters, would restore water 
quality. What are the factors that would limit growth of algae-
producing, oxygen-depriving elements in the waterways and the 
lakes and the estuaries? And the second was help for 
communities to build sewage treatment facilities, to treat the 
wastes before they get in to the receiving stream. The third 
was an enforcement program to bring States together to 
agreement on enforcement measures for municipalities and 
industries.
    And it was such a novel idea, John Blatnik thought that 
this would be something that everybody would want to join in, 
and he reserved the caucus room of the Cannon House Office 
Building. There were only two office buildings then, Longworth 
and Cannon, which was the first built. It can seat 600 people 
and he thought, surely, there would be great interest in such a 
cause, and sent out what we call today a Dear Colleague letter, 
which was unusual in those dates. Rarely did one make such 
broad appeals.
    And on the day they sat for the meeting, he arrived and 
there were three people: John Blatnik, Congressman Bob Jones, 
and Murray Stein, an attorney in the U.S. Public Health 
Service, whose office, as Blatnik said, was in the seventh sub-
basement of HEW, but he was concerned about water quality. And 
together the three of them fashioned these ideas into a 
legislative initiative which was introduced in early 1956, 
passed the House, the Senate, signed by President Eisenhower, 
providing $30 million in Federal grants, 30 percent Federal 
participation to help municipalities build sewage treatment 
facilities.
    Time passed, and in the ensuing three years it was clear 
that much more was needed; clear that we needed a broader 
program; clear that you had to go into the watersheds and to 
deal with the sources of pollution; and that much more money 
was needed. So Blatnik introduced a second bill to expand the 
funding from $30 million to $50 million, with still 30 percent 
Federal grant; stronger enforcement and more money for 
research.
    That bill was vetoed by President Eisenhower, with a veto 
message that read, in its last line: pollution is a uniquely 
local blight. Federal involvement will only impede local 
efforts at cleanup.
    But that was an election year and John F. Kennedy was 
pledging to invest substantially in cleanup of the Nation's 
waters, and one of his first acts in 1961 was to increase 
funding to $100 million--a vast sum in those days--and 50 
percent Federal grants, and a stronger research and a stronger 
enforcement program; and that passed the Congress and was 
signed by the President.
    Lyndon Johnson further expanded funding, coming up to $1 
billion in Federal grants by the mid-1960s. But what galvanized 
the Nation then in the Johnson White House was that, now, 
mounds of suds were floating down the Ohio River system. People 
in various parts of the Country turned on their faucets and 
found soap suds instead of water coming out.
    Then, in 1968, the Cuyahoga River caught on fire, with 
headlines and photos all across the Nation that said we must do 
something more significant, and that launched a series of 
hearings. By that time, I was chief of staff of the Committee 
on Public Works. We had extensive hearings over the period of a 
year; moved a bill through the House that vastly expanded, 
substantially increased construction grants, established 
laboratories for research, saltwater laboratory in Rhode 
Island, a freshwater laboratory that eventually was established 
on the shores of Lake Superior, five regional laboratories to 
conduct further research; much stronger enforcement programs.
    Then we entered in conference with the Senate; 10 months of 
conference. Some of them here in this very room; others in the 
Capitol; some in the Senate office buildings. One thing that 
was clear to all conferees----
    And those were the days when Mr. Chairman Young, we 
actually met. I remember your frustration as Chair of the 
Committee. You would go to meetings and you wouldn't see 
Senators, and they would send emissaries. I am sure Mr. Mica 
has had that same experience during his Chairmanship of the 
Aviation Subcommittee.
    Members actually came, debated with each other, and staff 
met in between; vigorous, heart-felt debates and discussions. 
But one thing that was a clear consensus was that the nature of 
the program needed to focus on the waters of the United States, 
not just on navigable waters, from which the Committee 
initially derived its authority; that watersheds were critical 
to maintaining the quality of our water, that you had to reach 
in to the very beginning of the stream in order to be able to 
maintain water quality.
    The opening paragraph, the defining paragraph of the Clean 
Water Act reads: The purpose of this Act--the purpose of this 
Act, defining the terms for it--is to establish and maintain 
the chemical, physical, and biological integrity of the 
Nation's waters. That conference report was sent to President 
Nixon, who vetoed it, and the Congress overrode that veto by a 
10 to 1 vote in the House, and a considerable margin in the 
Senate. And it has been our basic act, our basic law that has 
improved the quality of the Nation's waters. The goal was to 
have fishable, swimmable, body contact sport quality water 
throughout the United States.
    There are 135 benchmarks set in that legislation. Not a one 
of them was met in the time frame envisioned. But, eventually, 
we got to something like 60 percent, 65 percent of the Nation's 
waters cleaned up. That leaves a third still, yet to be 
addressed, and that remains our goal, remains our challenge, 
remains an objective. This Clean Water Act addressed this 
extraordinary issue of fresh water for all.
    You know, we send missions to Mars, to Saturn, to the 
asteroid belt, with sophisticated spaceships looking for water. 
Landed one of those on a large asteroid with a probe that was 
looking for water, water elsewhere in the universe, water that 
is the source of life. We need to spend as much time and energy 
and effort here on earth, even more, than we are in 
interplanetary missions, because all the water that ever was or 
ever will be is on the earth now, and it is our responsibility 
to care for it.
    Mr. Mica, thank you for being here with us, our Ranking 
Member.
    Mr. Mica. Thank you. If I may, Mr. Chairman, I would like 
to yield to our former Chairman, who has another obligation, 
and I will get my remarks.
    Mr. Young. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman. I deeply appreciate this hearing and I agree with 
everything the Chairman said in the sense that we have made 
great progress, but we can make more.
    My only advice, as we go through this review of how the 
Clean Water Act, we also have to see how it has been used 
against clean water itself. Primarily, I am referring to 
lawsuits by different groups that filed suits, I think, 
maliciously, trying to subvert the action of the Act itself, as 
we did pass it and which I voted for. I really believe that we 
have a responsibility to make sure we achieve our goals of 
clean water and, yet, also protect our ability for cities and 
other communities to function, especially our smaller 
communities.
    What I am speaking of primarily is never intended to act on 
the arsenic quality or quantity in the water that is naturally 
in there, and you have a small community maybe of 500 people 
who put in a fine well, et cetera. Now they are required to 
treat the readers to a certain level that is prohibitive, it is 
impossible, and what we end up with is people going back to 
wells. There is no law against having your own well and 
drinking arsenic. There is a law, if you have a municipality, 
under the Clean Water Act, that they have to reach a certain 
standard.
    So I think we have to review what has been done. One of the 
proud things I have is the Potomac River. When you first came 
down and I first came down, it was a mess. It is now one of the 
finer fishing streams in the United States. That has been 
achieved during our time of tenure. So I think we have made the 
great progress.
    You mentioned Ohio and the fire that went on. That was John 
Seiberling's battle and now it is a clean river.
    So we go forward, but let's, as we go forward, review what 
has been accomplished, and can we improve and still achieve 
portable water for the smaller communities in this Nation.
    I thank the gentleman.
    Mr. Mica. Thank you.
    Reclaiming my time, if I may, let me just thank Mr. Young. 
We appreciated hearing his comments. He does have obligations 
as the Ranking Member of another Full Committee.
    First, a couple of items, Mr. Chairman. From our side of 
the aisle, we want to welcome Laura Richardson.
    I don't know if you were here when you were welcomed by the 
Chairman, but we are all delighted to have you. Congratulations 
on your election. As I mentioned to you, I knew your 
predecessor very well, many of us did, and worked with her. I 
have been out in your district and hope to get back and help 
you on the projects that are important to your area in Southern 
California; in fact, was there last weekend. God help you, it 
is something else. But we do welcome you and congratulations on 
your new assignments.
    One other item of business, Mr. Chairman. I ask unanimous 
consent, I have a group of Water Advocacy Coalition and 
American Roadbuilders Transportation, American Council of 
Engineering Companies, American Society for Civil Engineers. We 
ask these and other statements be included in this important 
hearing.
    Mr. Oberstar. Without objection, so ordered.
    Mr. Mica. Okay.
    I don't have the depth of history that Mr. Oberstar has. I 
guess he worked as a staffer when some of this was being done.
    Mr. Oberstar. All of it.
    Mr. Mica. It is good to see something he wasn't a Member 
that he wrote the damn thing, but he was here as a staffer, as 
I was, but I wasn't involved in this at all. In fact, my boss, 
who was the Ranking Member, got defeated when he ran for the 
Senate and we were all out of a job, that is another story.
    I was telling Mr. Cummings it is nice to be here with Mr. 
Oberstar. I feel like I have a second marriage to him. You 
know, yesterday we had some disagreements, but together we 
moved a product forward, rail safety, which was something that 
he wanted to do. We had some disagreements, but today is a new 
day, so we wake up and we are at it again, trying to improve 
our Nation's water today. So sort of like a marriage. The nice 
thing about this marriage is I don't have to say yes, dear, as 
much.
    [Laughter.]
    Mr. Oberstar. You can say it more often.
    Mr. Mica. Well, sorry, dear.
    [Laughter.]
    Mr. Mica. But, in any event, our intent today is to review 
the history, again, and some of the successes and some of the 
problems we still incur with the adoption of a law that took 
place some 35 years ago. There are many successes we can point 
to; you have heard some of them. In 1972, only two-thirds of 
the waters were estimated at that water quality standard. A few 
decades ago, wetlands were being lost at an alarming rate and 
some of the reports we have that we are actually gaining 
wetlands--and I want to talk about that in a second.
    But we have to continue this record of success, and there 
are some challenges ahead, for example, we have an aging 
wastewater infrastructure and some of our water treatment, 
water quality programs. And if everyone will recall, those are 
some of the first bills that we did in this Committee in a 
bipartisan effort, and WRDA will be another bill that may also 
require the override of a presidential veto. But we made a firm 
commitment to having the resources we needed, and some of those 
are long overdue. So we have had some successes.
    It is important, too, that the Federal Government--we have 
to look at this. The Federal Government can't do everything in 
this effort; we have got to call on the States, and several 
States have taken some very significant programs for funding 
wastewater and infrastructure and other clean water projects. 
Some States have approved special bonds to assist local 
communities. I want to cite the State of Maryland, which 
established the Chesapeake and Atlantic Bays Coastal 
Restoration Fund. I think this has to be a true partnership of 
State, local, and the Federal Government, and also the private 
sector.
    So I think as we approach any future changes--and this 
hearing today, while it is a review, it is also a prelude to 
possible future changes. One of the things we have to be 
cautious about--and Mr. Young spoke about them--is over-jealous 
regulators and sometimes regulations that don't make sense, and 
the arsenic that occurs naturally in water, as Mr. Young cited, 
is a great example, just making sense and not putting burdens 
and actually putting people in a position where they are 
subject to some alternative that will not give them what we 
want, and that is clean water.
    The geographic extent of jurisdiction of the Clean Water 
Act has been a topic of much debate and significant Supreme 
Court decisions in recent years. Some are concerned that the 
recent Supreme Court decisions have weakened the Clean Water 
Act; others have applauded the same Supreme Court decisions as 
an appropriate step towards a reasonable and constitutional 
Federal regulation. At a Committee hearing earlier this year, 
the Governor of Montana told us that his State did not want the 
long arm of the Federal Government imposing regulations that 
would threaten the livelihoods of farmers, ranchers, and 
miners. He asked that the Federal Government be a partner and 
collaborator with States in a joint effort to protect water 
resources. However, some do want to expand the jurisdiction to 
federalize all waters around the Nation, and there are bills 
that will redefine wetlands that are pending in Congress.
    Unfortunately, we can sometimes, through some of these 
solutions, create even greater problems. We have had 35 years 
of jurisprudence related to the Clean Water Act, which has 
served to refine and clarify the law. I think we have to be 
very cautious that, as we make any redefinition of wetlands, 
that we don't upset the apple cart and end up in more lawsuits, 
more regulation, more dispute. In fact, that we don't open a 
Pandora's box filled with unintended consequences. That would 
be one of the cautionary things.
    In fact, when I was in Orange County this weekend, in 
California, one of the main questions I got is what are you 
going to do with the wetlands redefinition, and they cautioned 
me about some of the pending legislation. So I urge careful 
consideration and moderation in any efforts that we undertake, 
and I look forward to making reasonable improvements, but not 
those that get us all bound up and not going in the right 
direction.
    So with those comments, I am pleased to yield back.
    Mr. Oberstar. I thank the distinguished gentleman for his 
observations and welcome the partnership as we go forward with 
further legislation on the Clean Water Act to simplify the 
permitting process, to streamline it, to remove obstacles that 
have frustrated landowners, restore and maintain the 
agricultural exemptions of the Clean Water Act itself, and not 
redefine wetlands, but retain in place the 35 years of 
jurisprudence that the gentleman referred to, and to observe 
the concern of Governor Schweitzer, who cautioned about the 
long arm of Washington, but also, in the end, supported the 
Clean Water Restoration Act.
    I would like to jump over seniority at this moment and 
invite our newest Member of the Committee, Ms. Richardson, to 
make comments at this point.
    Ms. Richardson. Thank you, Mr. Chairman. First of all, 
please excuse my delay. I was cheering in Niki Tsongas, who is 
now the newest Member of Congress, and in five weeks I have 
already gained seniority. So I was there cheering her on.
    Mr. Oberstar. Stick around; it gets better.
    [Laughter.]
    Ms. Richardson. I am counting on it.
    Mr. Chairman, I appreciate both you, Ranking Member Mica, 
and the other Members of the Transportation and Infrastructure 
Committee for welcoming me. I share your commitment in 
understanding that, really, although a lot of people don't get 
it, transportation, to me, is the key issue that is facing us 
here in the United States, and we have a firm responsibility to 
handle legislation in a very positive and a forthright way so 
we can make the progress desperately needed that I believe 
Americans are looking for.
    Finally, Mr. Chairman, I acknowledge your legendary history 
and knowledge. I look forward to learning from you. And I also 
hope that the expertise that I bring to the table will be of 
value to this Committee. So thank you for welcoming me, and I 
don't mind being a part of the marriage, and I gladly will say 
yes, dear. Thank you.
    [Laughter.]
    Mr. Oberstar. Thank you. Thank you. We welcome you to the 
Committee.
    [Applause.]
    Mr. Oberstar. The Ranking Member of the Water Subcommittee, 
Mr. Baker, distinguished gentleman from Louisiana.
    Mr. Baker. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak briefly on the important matter before the 
Committee today and acknowledge your great contributions to 
this effort, and certainly that of our Ranking Member, Mr. 
Mica.
    I share many of Mr. Mica's views and statements on the 
matter. I am excited and eager to pursue a goal which would 
result in streamlining of the regulatory process to bring about 
a format that would give some rational certainty to the 
permitting necessary to comply with the Act, and not also make 
statutory 35 years of judicial findings which I believe the 
unresolved question, when we make those statutory statements, 
is the historic view of what the courts have said.
    In my opinion, waters of the United States will be found a 
little more narrowly in scope than perhaps others might choose 
to decide, but I look forward to a discussion on the scope of 
the authority. And, perhaps most importantly, the appropriate 
exercise of authority to not impair logical and rational 
development, while ensuring that the quality of water in the 
United States is not deteriorated by those who are 
irresponsible. And to that end, Mr. Chairman, I look forward to 
working with you.
    Mr. Oberstar. Thank you very much. The gentleman from 
Louisiana is a very thoughtful, scholarly, and diligent Member 
of the Committee, and we look forward to vigorous 
participation.
    Mr. Space.
    Mr. Space. Thank you, Mr. Chairman. I would just like to 
express my gratitude to you for your continued leadership, as 
well as that of Ranking Member Mica, and I look forward to 
moving forward in the spirit of the Clean Water Act and 
wonderful things it has done for my district back in 
Southeastern Ohio, the home of the Tuscarawas, Muskingum, and 
Hocking Rivers, some of the most scenic sights on earth, 
particularly at this time of year. Again, thank you for your 
leadership.
    Mr. Oberstar. I thank the gentleman.
    Mr. Boozman.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. Before I do, I 
would like to introduce one of the panelists for the second 
panel, if I might.
    Mr. Oberstar. The gentleman is recognized.
    Mr. Westmoreland. I am honored to acknowledge one of the 
panelists for the second panel, Mr. James King, the President 
of the Dekalb Pipeline Company of Conyers, Georgia. Mr. King 
was also elected President of the National Utility Contractors 
Association in February, and this year Mr. King has served on 
the Administrative Board of National Utility Contractors 
Association since 2003, and as President of the Association he 
represents over 1700 members nationally. Mr. King's Georgia 
company, Dekalb Pipeline, was started by his father in 1960 and 
has been a thriving business every since. Dekalb Pipeline has 
been honored with several awards, including one for its 
outstanding commitment to employee safety.
    As a Georgian, I am very appreciative of Mr. King's 
dedication to the construction at the local and the national 
level, and I want to thank him for coming today, and I am 
looking forward to his testimony regarding the Clean Water Act 
and its affect on our Nation's water infrastructure.
    Now, if I could, Mr. Chairman, have my opening statement.
    Mr. Chairman, I want to thank you and Mr. Mica, both, for 
working together on this very important issue of clean water. 
But I want to address several members of the panel, if I could, 
Mr. Woodley and Mr. Grumbles, because, to have clean water, you 
have to have water. And I know the Chairman mentioned satellite 
efforts on different planets and on this planet to try to find 
water, and, Mr. Chairman, I will tell you, if you are looking 
for water, don't fly over Lake Lanier or West Point Lake, 
because there is none.
    Georgia is in a drought crisis. We, as a congressional 
delegation, and our governor has been enquiring with the Corps 
and with the EPA about helping us resolve this problem. We are 
releasing more water out of Lake Lanier and West Point than is 
going in. Atlanta is down to an 80 day water supply. This water 
is being released to help the muscles and the sturgeon. We feel 
like that clean water is very important, but, in order to have 
clean water, you must have water. Lake Lanier is down 13 feet 
and is falling 6 inches a day. There was more water released 
from Lake Lanier last Monday than has been released since June 
of 2006. This is totally unacceptable.
    I read your comments about clean water but they, to me, do 
not have any credence because I think, first, we have got to 
make sure that the citizens--and especially of Georgia--have 
water to have clean water. West Point Lake is at the level of 
621. 619 is mud flats. The water is already below the intakes 
of many people that take water out of West Point. This is 
inexcusable from the Corps. We have an interim operating plan 
from Fish and Wildlife that the Corps has refused to go and get 
amended so we will not have to release the amount of water 
downstream that we are having.
    So, Mr. Chairman, while I appreciate very much the fact 
that we are having this hearing on clean water, and everyone 
wants clean water, but people also want to have water, and in 
order for us to maintain being able to have consumption in the 
State of Georgia, we have got to have some relief from the 
Corps, from EPA, and from Fish and Wildlife. And, Mr. Chairman, 
I am going to ask you and Mr. Mica, if you would, to look into 
this, to join us in our efforts to make sure that the people of 
Georgia have water during this drought. And, Mr. Chairman, if I 
am not badly mistaken, there is something in the Endangered 
Species Act that says in a time of drought, that the Corps can 
intervene to make sure that people have drinking water.
    So with that opening statement, I just want to make sure 
that people understand that while Mr. Grumbles and Mr. Woodley 
here are testifying about clean water, they need to be 
testifying about why they are prohibiting or maybe going to 
force people to go without drinking water, and rather than 
having soap suds come out of your pipe, we are probably going 
to have mud. So clean water is a great priority, but water 
first.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman. I look forward to 
working with him one-on-one and with Mr. Mica, if he wishes to 
participate, with the Corps and with other entities to help the 
gentleman and his constituents achieve the water they need. 
Thank you.
    Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing. It is important that we take a 
time like this, the 35th anniversary of the Clean Water Act, to 
take a look at where we are with this important and 
increasingly complex issue. We do have success to tout, as the 
Chairman mentioned. In 1969, the Cuyahoga River in Cleveland 
caught on fire due to pollution. In 1972, only one-third of our 
Nation's waters met clean water goals. Now, on this 35th 
anniversary, two-thirds of our waters meet these goals. 
However, this means that we still have work to do to make sure 
that the remaining one-third of our waters meet these goals.
    But as we look ahead, I have to say a lot has changed, and 
a lot will continue to change as we address our water 
infrastructure challenges. Now is a good time to renew our 
commitment. Since 1972, our focus on water issues has 
broadened. More issues now play a role in our water quality and 
the soundness of our water infrastructure. Issues such as the 
loss of wetlands, flood protection, endangered species, and 
climate change now play a more integrated role.
    In my home State of California, we say water is the next 
oil. It is an incredible commodity that we do not take for 
granted. In California, greater than 90 percent of our wetlands 
have been lost. Wetlands are a valuable natural sponge that 
helps filter water, which can improve water quality and provide 
valuable flood protection when there is excess water.
    Additionally, California has the second most listed 
endangered species in the Country. But what is interesting 
about California is that most of our species have a link to 
water and spend at least part of their life cycle in water.
    How do these issues factor in today, on the 35th 
anniversary of the Clean Water Act? I think these are precisely 
the type of questions that we need to hear about from our 
witnesses today.
    In my district of Sacramento, we have taken on a broader, 
more regional approach with our water issues. We have taken a 
watershed approach and have begun to reach out to our rural and 
agricultural friends in the watershed to discuss ways to manage 
our region's water resources and the overall quality of our 
water.
    Regionally, we have come to realize that we can no longer 
classify our communities as strictly rural or strictly urban. 
We are all part of the system or the watershed. And today is a 
time to renew the dialogue on the management of our water 
quality, the safety, and the future of our communities.
    Thank you, Mr. Chairman. I look forward to hearing from 
today's witnesses and I yield back the balance of my time.
    Mr. Oberstar. I thank the gentlewoman for her comments and 
certainly all understand that phrase, water is the second oil. 
That is very well put.
    The gentlewoman from Virginia, Ms. Drake, who represents 
the Tidewater area.
    Mrs. Drake. Thank you, Mr. Chairman. Mr. Chairman, I just 
want to welcome our panelists, thank them for being here, thank 
them for their patience today, and I look forward to their 
testimony. Thank you.
    Mr. Oberstar. Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing on this wonderful anniversary of the 
35th year of the Clean Water Act.
    And, Mr. Mica, your leadership as well.
    But I want to be sure that we address things in balance. We 
absolutely have to make sure that we protect the future 
generations' water supply, absolutely, but we need to resolve, 
in the days ahead, the confusion and the angst that many people 
who are the users and consumers of the water, and who have to 
work with water all the time, feel based on a lot of the 
decisions coming out of the Supreme Court and the way the 
regulations have been interpreted and enforced.
    Clarity is essential here, and I look forward to listening 
to the testimony of the panel. I, of course, respect the 
leadership of our Chairman and the Ranking Member on this 
issue. I learned a lot earlier on in the debates on the 
discussion of clean water. I intend to learn even more after 
today's hearings. But, once again, things have to be done in 
balance here. Protect the environment, absolutely; assure that 
we have water for the future generations, absolutely; but also 
we have to remember the economic concerns of many of the 
interests. In my district, the farming and mining interest, the 
recreational interests, certainly, they all have to be in 
balance.
    So I really look forward to this testimony. Thank you.
    Mr. Oberstar. I thank the gentleman for his statement.
    Mr. Altmire? Mr. Arcuri.
    Mr. Arcuri. I would just like to thank the Chairman and the 
Ranking Member for having this important hearing, and I would 
like to thank the panelists, and I look forward to hearing 
their testimony.
    Thank you, sir.
    Mr. Oberstar. Before we go to the next order of business, 
which is hearing from our panel, I have a seven minute film, 
Troubled Waters. It was produced by the Senate Subcommittee on 
Air and Water Pollution in 1963 for the purpose of encouraging 
and informing the public of the need for clean water 
legislation. It included funds for a camera crew from the 
Public Health Service Communicable Disease Center and they used 
an Air Force plane to shuttle the crew to and from locations 
across the Country. It interviews a great many Members of 
Congress who saw the need for clean water legislation at a time 
when it wasn't a major public policy concern. So let us roll 
the film.
    [Film played.]
    Mr. Oberstar. Well, that was a look at the past, a look at 
the way things were in the years just before passage of the 
Clean Water Act, but in the days of what was known as the 
Federal Water Pollution Control Act.
    To help us understand what has happened since then and 
where we are today and where we are headed tomorrow is our 
first panel, Secretary Woodley, Secretary of the Army for Civil 
Works; Ben Grumbles, former staff of this Committee and former 
staff director for my former colleague from Minnesota, and now 
the Assistant Administrator for the Office of Water; Linda 
Eichmiller, Executive Director of the Association of State and 
Interstate Water Pollution Control Administrators; and the 
Honorable Kathleen Novak, Mayor of the City of Northglenn, 
Colorado.
    Secretary Woodley, we will start with you. Welcome and 
thank you.

 TESTIMONY OF THE HONORABLE JOHN PAUL WOODLEY, JR., DEPARTMENT 
 OF THE ARMY, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS; 
THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
OFFICE OF WATER, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; 
LINDA EICHMILLER, EXECUTIVE DIRECTOR, ASSOCIATION OF STATE AND 
    INTERSTATE WATER POLLUTION CONTROL ADMINISTRATORS; THE 
    HONORABLE KATHLEEN M. NOVAK, MAYOR, CITY OF NORTHGLENN, 
                            COLORADO

    Mr. Woodley. Good morning, Mr. Chairman, and thank you and 
the Members of the Committee for holding this hearing. I am 
very pleased to be here this morning to speak about the 35th 
Anniversary of the Clean Water Act: Successes and Future 
Challenges. My testimony briefly summarizes the Army's 
responsibilities under the Clean Water Act and touches upon the 
challenges and opportunities in the 21st century. I have 
provided a full written statement and ask----
    Mr. Oberstar. All statements, in full, by the witnesses 
will be included by unanimous consent in the Committee record.
    Mr. Woodley. Mr. Chairman, the Corps and EPA work together 
to administer the Clean Water Act. The Corps of Engineers has 
the primary day-to-day implementation responsibility for 
section 404, which covers the discharges of dredge and fill 
material into the waters of the United States, including 
wetlands. Through the Corps efforts, wetlands and the aquatic 
environments of which they are an integral part are protected, 
and the environmental and economic benefits provided by these 
valuable natural resources are realized, while allowing 
important development projects to go forward in a responsible 
manner.
    This Administration supports our program and wetlands 
protection. The Administration has budgeted increases in 
funding for our regulatory program from $138 million in fiscal 
year 2003 to $180 million in fiscal year 2008, a 30 percent 
increase in constant and nominal dollars. Unfortunately, Mr. 
Chairman, under the year-long fiscal year 2007 continuing 
resolution, the regulatory program was frozen at $160 million.
    The Corps' regulatory program staff makes over 110,000 
jurisdictional determinations and provides over 100,000 written 
authorizations annually. In addition to enforcement duties, the 
Corps regulators are also adjusting to the many changes in the 
program caused by court decisions, policy adjustments, program 
improvements, and the effects of increased coordination under 
the Endangers Species and National Historic Preservation Acts.
    Despite these challenges, the Corps, in coordination and 
cooperation with the Environmental Protection Agency and our 
other partners, is helping to exceed the no-net-loss policy on 
wetlands while further improving program performance, 
predictability, and transparency in several ways that are 
detailed in greater detail in the written testimony.
    I have personally, Mr. Chairman, made a point of visiting 
our regulatory program in each of our 38 regulatory districts, 
and I have found the Corps of Engineers personnel involved in 
this program to be very professional individuals committed to 
the goals of the Clean Water Act. I am proud of their 
accomplishments and I feel we are very fortunate not have this 
dedicated workforce who have earned and deserve all of our 
support.
    In conclusion, the Corps and the EPA have a long history of 
working together closely and cooperatively in order to fulfill 
our important statutory duties under the Clean Water Act. We 
remain fully committed to protecting America's waters and 
wetlands, as intended by Congress and expected by the American 
people. Although we recognize that there are legal and policy 
challenges facing the regulatory program, the 35th anniversary 
of the Clean Water Act finds the program operating robustly, 
supporting over $200 billion in economic activity annually, 
while protecting the important wetlands, resources, and aquatic 
environment.
    I very much appreciate the opportunity to be with you and 
testify on this important matter.
    Mr. Oberstar. Thank you, Mr. Secretary.
    Mr. Grumbles.
    Mr. Grumbles. Thank you, Mr. Chairman. I cannot think of a 
better place to be on the birthday of the Clean Water Act than 
here at the birthplace of the Clean Water Act, so it is quite 
an honor to be here on behalf of EPA and Administrator Steven 
Johnson to talk perhaps just very briefly about the 
accomplishments over the last 35 years, but to really focus in 
on some of the challenges and priority areas, and the 
commitment we have to work with you and your colleagues on this 
great Committee and in the Senate, throughout the Congress, on 
continuing to maintaining the progress and sustaining for the 
future.
    As you know and Members of this Committee know, I think 
everyone in this room knows, there has just been absolutely 
dramatic progress over the last 35 years. The Clean Water Act 
is the envy of the world in so many ways when it comes to 
successful environmental laws and programs.
    Since the 1972 Act, we have seen the placement of a 
national standards and affluent guidelines; a national 
permitting program, which, with our State partners, as it 
should be, is implemented through the States but with national 
guidance and assistance under a very strong and clear 
regulatory framework. We have seen an emphasis on pretreatment. 
We have seen an emphasis on investment in the Nation's 
wastewater infrastructure, the gray, the bricks, the mortar, 
the important components of the building blocks for treating 
wastewater and restoring waters for downstream users and 
increasing communities. We have seen, through the partnership 
with the U.S. Army Corps of Engineers and others, tremendous 
success on protecting and restoring wetlands through the Clean 
Water Act.
    The Administration is fully committed not just to the no-
net-loss goal, but also to an overall increase, an overall gain 
goal in the quality and quantity of the Nation's wetlands, 
which are at the core of this Country's cultural and natural 
history and heritage.
    We have seen progress in so many ways through the regional 
programs, the Great Lakes, the Chesapeake Bay, the Gulf of 
Mexico. Many successes.
    Mr. Chairman, as you know, as we all know, one of the 
greatest challenges is with respect to infrastructure, 
maintaining and building, ensuring adequate capacity, and that 
is why the Administrator has identified as one of his highest 
priorities developing and implementing innovative, sustainable, 
market-based financing and management solutions for wastewater 
and drinking water infrastructure.
    Mr. Chairman, one of the most important things that 
Congress can do is to enact the Administration's Water 
Enterprise Bonds proposal. We view that as a very important 
supplement to traditional financing mechanisms, to other Clean 
Water Act financing programs, such as the State Revolving Fund. 
But the Water Enterprise Bonds is a key component of that 
strategy.
    We also are very committed to working with this Congress on 
Good Samaritan legislation, so another component that we think 
is very essential and timely is moving a targeted, bipartisan 
Clean Water Good Samaritan bill to improve the health of 
watersheds throughout the Country, but particularly in the 
West, where abandoned hard rock mines present challenges to 
constituents and to the fish and wildlife.
    Mr. Chairman, we also see, particularly as it has been 
highlighted so well by the City of Atlanta and the concerns 
over water quantity, that the future of the Clean Water Act 
depends not so much on new Federal regulatory authorities, but 
on working at State and local levels to usher in a new era of 
water conservation and efficiency. That is why EPA's Water 
Sense program, which is modeled on the Energy Star program, we 
feel is a very important one to help change the way American's 
view and value water and to look for ways to reduce waste and 
inefficiency when it comes to water.
    The other item, Mr. Chairman, I would emphasize is 
increasing our capacity to monitor for progress throughout the 
Country. The Administration's proposal, the $18.5 million water 
quality monitoring initiative has precisely put us on the right 
path, working with States to get a more accurate picture of 
progress when it comes to wadeable streams and lakes and 
estuaries and coasts. So we think continued focus on increasing 
the monitoring under the Clean Water Act is important.
    And the last one is the overall watershed approach, Mr. 
Chairman. In every way we feel that the future relies on green 
infrastructure and sustainability, and taking a watershed 
approach, viewing stormwater not just as a waste product, but 
as a water resource and reusing it, using wetlands, restoring 
and protecting wetlands to focus not just on the gray 
infrastructure, but the green infrastructure over the next 35 
years.
    Thank you, Mr. Chairman, for the Committee's efforts on 
this regard.
    Mr. Oberstar. Thank you very much, Mr. Grumbles. Arlan 
Stangeland would be proud of you, former Member from Minnesota, 
former Member of this Committee. It is also refreshing to have 
a witness come and speak from the fullness of knowledge as you 
just did.
    Ms. Eichmiller.
    Ms. Eichmiller. Thank you. The Association appreciates this 
opportunity to share the perspectives of State and Interstate 
Water Pollution Control Managers on the success of the Act and 
the challenges the future holds.
    The 1972 Act was built, as you know, on effective existing 
State programs and a vision of a partnership to get to its 
goals. It has provided a highly effective statutory framework; 
however, this is a good time to consider adjustments to 
facilitate further progress.
    Major accomplishments, we have talked about quite a few. 
Waters throughout the Nation have become fishable and swimmable 
to the extent that the latest generation of children could not 
envision what the earlier generations had to endure and see in 
the great pollution of our Nation's waters. Water quality 
improvements just didn't happen. Virtually every city, town and 
industry invested very significantly to get us to where we are 
today. That includes over $500 billion in municipal 
infrastructure and the capitalization of a State Revolving Loan 
Fund to over $60 billion.
    Comprehensive water pollution control programs have been 
put into place at the national, State, local, and regional 
level. We all deserve a lot of credit for that. A strong 
partnership at the State and Federal level has been developed 
with national consistency, tempered by the tension of 
flexibility to get good solutions into place.
    Section 106 grants have funded States' implementation. They 
are one of the most important considerations in thinking about 
the future of the Act as to how to get implementation most 
effectively. With those funds, States set priorities with their 
local stakeholders to make the best use of the limited dollars.
    The Clean Water Act has ensured public involvement in all 
facets of the program. This has been very unique to the Act and 
very key to its success.
    Lastly, States have been monitoring and assessing water 
quality and reporting to you all and the public on the 
findings. This wealth of information also helps us focus on the 
highest priority water quality problems.
    Can the Clean Water Act achieve its stated goals? We 
believe, as managers of the program, absolutely yes; that the 
interim goal of fishable and swimmable needs to be maintained. 
However, as some of you have talked today, solutions in the 
future are going to be costly and complex. Innovative treatment 
technologies and creative regulatory solutions are going to 
have to go beyond the traditional command and control way of 
doing business. The flexibility contemplated in the Act for 
States to develop creative solutions is key.
    As we see major challenges that lie ahead, and has been 
talked about today, infrastructure is definitely a major need. 
We have funding gaps that are major for infrastructure; we have 
funding gaps for State management of the Clean Water program; 
and we have substantially more stringent requirements for such 
pollutants as nutrients and other issues that increasingly are 
pressing upon sources to solve their problems.
    We now know that water pollution is caused by air 
deposition. Mercury contamination is making our fish inedible. 
We have to face together how to have the nexus between the 
Clean Air Act and the Clean Water Act to address those 
problems. Climate change, as was alluded to today, is a major 
concern for us.
    Lastly, we need to work to integrate at the watershed level 
the problem-solving process and go across State lines to 
address the challenges. This is going to require a lot of 
creativity.
    In addressing these challenges, there are several 
conversations we are going to have to have and briefly: 
obviously, what is the Federal, State, and local role in 
bridging the funding gap? How can we maintain flexibility to 
enable, at the watershed level, limited resources to be 
allocated to priority problems? How can we promote, in the 
Clean Water Act, that watershed problem-solving? What are we 
going to do when we realize traditional approaches contemplated 
in the Act may not work for nutrients, pharmaceuticals, 
endocrine disrupters? We are going to have to think outside the 
box a little here. And, lastly, we are going to have to, as you 
have talked today, deal with the Clean Water Act jurisdictional 
issue.
    In conclusion, we believe the Clean Water Act is sound. 
Nonetheless, we encourage that we all consider administrative 
and legislative refinements based on lessons we have learned, 
our scientific knowledge and advancements, and issues that have 
emerged since 35 years ago, when the Act was created. Thank 
you.
    Mr. Oberstar. Thank you very much. Very thoughtful sweep of 
the issues before us.
    Ms. Novak. Mayor, thank you for coming.
    Ms. Novak. Thank you. Good morning, Mr. Chairman and 
Members of the Committee. I am Kathy Novak, Mayor of 
Northglenn, Colorado, home of the National League Champion 
Colorado Rockies. I just have to say it. It doesn't happen very 
often; it may not happen again.
    [Laughter.]
    Ms. Novak. I am here today on behalf of the National League 
of Cities, the oldest and largest organization, representing 
over 19,000 local elected officials in America's cities and 
towns. I appreciate the opportunity to present the views of 
local government on the impact the Clean Water Act has had on 
the quality of our Nation's waters and on the quality of the 
life of our public.
    We appreciate the leadership and the dedication of this 
Committee in protecting our Nation's water resources and I am 
honored to be part of this hearing that celebrates the 35th 
anniversary of the Clean Water Act.
    The Federal Water Pollution Control Act passed by Congress 
in 1948 funded State and local water treatment systems and 
required the establishment of State water quality standards. 
With States controlling pollution discharge at the local level 
and the Federal Government having control over interstate and 
coastal waters, little consistency of laws and regulations 
existed nationwide. Amendments to the law passed in 1972 and 
referred to as the Clean Water Act established a national 
system for controlling pollution and protecting our Nation's 
waters.
    This national system has served local governments well. 
Only about a third of the States have any State level water 
standards and protections in place, and, of those, many are 
substantially weaker than the Clean Water Act requirements. For 
the most part, State water protection programs have evolved to 
work along with the Federal Clean Water Act, not in place of 
it. Because rivers and streams frequently cross State lines, 
protections in one State cannot be undermined by a lack of 
protection in a neighboring State. Local governments have 
benefitted from a national system for controlling pollution 
because water everywhere must meet the same water quality 
standards; communities downstream from waterways face less 
pollution caused by communities upstream.
    The original law passed in 1972 set rigorous goals for all 
waters of the United States to be fishable and swimmable by 
1983 and called for there to be zero discharge of pollutants 
into the Nation's waters by 1985. To help States and local 
governments meet those requirements, the legislation also 
established a general Federal grant program that provided up to 
75 percent of the cost to build wastewater treatment 
facilities. Indeed, most of our Nation's water infrastructure 
was built in the 1970s. Local governments would not have been 
able to meet the requirements of the Clean Water Act without 
this grant program.
    Today, the program known as the Clean Water State Revolving 
Fund provides essential money for local governments to assist 
in modernizing our water infrastructure. As the population has 
increased to close to 50 percent and continues to grow, 
governments at all levels must substantially increase 
wastewater and drinking water infrastructure funding in order 
to maintain and improve the quality of our water. Failure to 
make these necessary investments in our aging water 
infrastructure will lead to a serious decline in water quality. 
Unfortunately, the EPA has estimated that we are falling far 
short on water infrastructure spending by $22 billion per year.
    Clean water is the backbone of livable communities and 
modern society. Effective sanitary and easy access to clean 
water support our Nation's health and economy. But like other 
invisible systems, we tend to take them for granted. We turn on 
our faucet and assume that the water is safe for drinking and 
bathing. We assume that our lakes, rivers, and coastal waters 
are safe for swimming and fishing. And while we live in a 
Country where typically this is the case, it has not always 
been so. The Clean Water Act is the main reason the Nation's 
waters have shown dramatic improvement in water quality. The 
law has been instrumental in improving the health of our lakes, 
rivers, and coastal waters by preventing billions of pounds of 
pollution from entering our waterways.
    We are now at a crossroad where we must determine the fate 
of our Nation's waters. Will we continue to move forward and 
make progress or will we let this progress slip away? As beach 
closings caused by sewage overflows are occurring at the 
highest rates ever and economically crucial lakes, rivers, and 
coastal waters are being crippled by pollution, it is clear 
that there is much work to be done.
    It is NLC's position that we must not let the progress made 
under this Act be turned back or negated. We must continue to 
move forward. We owe it to future generations to ensure that 
they too are able to fully enjoy and appreciate clean water.
    While the Clean Water Act has resulted in successes in 
cleaning up point source pollution in waterways, future 
challenges remain for non-point source pollution. Previous 
Congresses have refused to consider attempts to authorize 
control over non-point source pollution. Unregulated non-point 
source pollution such as trash in our streets, oil and grease 
from cars, and fertilizers from lawns seep into our local 
watersheds, pollute our water, but pass the cost of remediation 
onto our local communities. In setting the future direction for 
the Clean Water Act for the next generation, we must address 
this issue and ensure that all pollution sources are 
considered.
    Finally, in order to maintain the quality, the critical 
investments to our water infrastructure must be made and local 
governments cannot bear the cost of this alone. In 2007, the 
loan for the funding for Colorado was $323 million, while the 
loan capacity was only $41 million. For cities across the 
Country, this shortfall will continue to grow more stringent.
    We urge you to fully fund the Clean Water State Revolving 
Fund, as it provides essential funds for local governments to 
assist in improving and maintaining the Nation's 
infrastructure, and we thank the Chairman and Committee Members 
in your leadership in passing H.R. 720, the Water Quality 
Financing Act of 2007.
    I thank you for the opportunity to speak on behalf of 
cities and towns, and look forward to your questions.
    Mr. Oberstar. Thank you very much, Mayor Novak. Is 
Northglenn near Fort Collins?
    Ms. Novak. Near is a relative term. We are a Denver suburb, 
on the north end.
    Mr. Oberstar. Oh, okay. All right. Well, my youngest 
daughter lives in Fort Collins with her family.
    Ms. Novak. It is a beautiful city.
    Mr. Oberstar. She lived in Denver for a time and then in 
Steamboat Springs, and now Monica and Callie Jo and Drew are 
very happy up there in Fort Collins. They love the mountains. I 
don't understand why.
    Ms. Novak. You need to spend a little more time with us and 
you will see.
    [Laughter.]
    Mr. Oberstar. You raised a number of issues that are of 
significance for this hearing and for this Committee, and I 
will address two of those. One is the State Revolving Loan Fund 
program. Could I invite you to preach that sermon over in the 
other body, on the other side, 200 meters from here? They need 
to hear that. We have passed, as you noted, this legislation, 
not at the $20 billion level of your testimony, but $14 
billion. We had to scale it back in order to comply with the 
new pay-go rules of the House.
    The issue was raised by the Office of Management and Budget 
that if we extend an increase to funding, States will borrow 
and they will match the Federal available funds with their 
local share that will be in tax-exempt bonds and those will be 
a loss of revenue to the Federal Government. Very curious 
thinking. They are not borrowing that money now; that revenue 
is not being lost to the Federal Government; they are not 
getting it now, but that is the way the Office of Management 
and Budget thinks, regardless of administration. It makes no 
difference if it is a Democrat or Republican. If Castro came 
in, they would all grow a beard, the whole crowd down there. I 
get very frustrated with them.
    So we scaled it back and found offsets and came up with $14 
billion, and the bill passed the House. It is waiting for 
action by the Senate for five months, six months, in fact, 
since we passed that bill. So carry your message across the 
aisle. I mean, across the Hill for us.
    The State Revolving Loan Fund, by the way, is the 
replacement for the grant program of the Clean Water Act of 
1972, which had up to $6 billion a year in 80 percent Federal 
grants to the major metropolitan areas. At that time, most of 
the money was committed, I think rightly so, to cleaning up the 
major waste streams discharging hundreds of millions of gallons 
of sewage a day into receiving waters, and the intention was 
that a major shift would come in the second decade of the Clean 
Water Act to those of less than 250,000 population. The problem 
is then Ronald Reagan was elected President and he cut the 
grant program out and we were saddened with a loan program, 
which was the State Revolving Loan Fund. We need to go beyond 
the $14 billion.
    We also passed legislation through the House, 
$1,800,000,000 in grants to municipalities to separate combined 
storm and sanitary sewers. That too awaits action over in the 
other body.
    But you did mention the non-point source issue, which, 20 
years ago, I cited as the new frontier, the remaining frontier, 
after we addressed and were in the process of addressing the 
point sources, the non-point source from developed lands, 
shopping centers being built, major housing developments, where 
you have land runoff. Those all have to be addressed, and I 
would like to have you expand on that, why the National League 
of Cities feels that this is a frontier to be addressed.
    Ms. Novak. Well, I can speak, for example, using my 
community. We did establish a stormwater utility and have gone 
to great lengths to educate our citizens about these kinds of 
issues. We are a suburban community, a bedroom community to 
Denver, and yet we have faced the challenges of trying to deal 
with the pollutants that come in to our waste stream and our 
water stream from people over-fertilizing their yard and 
letting it run in, from the oil and the gas leaking not only on 
our streets, people doing oil changes at home and rinsing it 
down into the gutter and it gets into our water streams.
    Here are things that we are encouraging our citizens to do, 
and I know throughout the Denver Metro region, building green 
roofs, for example, to try and catch some of that. There are 
been technological advances in permeable concrete and pavement 
that allow the water to come in so it doesn't just drain off, 
take those pollutants with it and dump it right into our rivers 
and streams.
    So I think at the local level we are doing what we can, but 
it is difficult because we cannot do it alone, and for us to 
bear the total responsibility of cleaning those up, when they 
come from sources that are really difficult to determine, is a 
burden that is really difficult for us to bear.
    Mr. Oberstar. Thank you. Well said and right on point.
    Ms. Eichmiller, you suggested creative solutions for States 
and localities to develop. What did you have in mind? Can you 
give us an example or two of creative solutions that are 
promising for the improvement of water quality and what might 
be roadblocks we might be able to address?
    Ms. Eichmiller. Yes. Building on the mayor's example, I 
think Minnesota is a very good example of that, where you have 
very complicated, very vibrant stakeholder groups that have a 
myriad of Federal agencies, State agencies, regional agencies, 
universities, and citizens that have had to convene to see how 
are we going to solve our watershed problems, and the role of 
the State water pollution control people--and I think the role 
of the Clean Water Act--is to help facilitate that process.
    If there is a barrier, help remove that barrier and help 
encourage all of these actors that have to work together to 
really solve what is a watershed problem that is coming from 
various different levels. And the solution in the upper 
Minnesota, upper Mississippi, is not going to be the same as it 
is going to be in California in the various different regions. 
We see the future of water pollution control very much in this 
direction, and the really fundamental issue for the Clean Water 
Act is how can we help make these efforts happen, whether it is 
institutional barriers, money. You know, we are a partner in 
this.
    Mr. Oberstar. Well, the partnership theme has been the 
cornerstone of the clean water program since 1956; it was 
always envisioned a partnership, Federal and State, with the 
Federal Government leading the charge because water moves among 
States. So thank you. We will work with you to develop those 
themes further.
    Mr. Grumbles, you cited a number of issues. Oh, and by the 
way, I just wanted to mention that we will be having an 
extended set of hearings--three, possibly four; certainly three 
hearings--on U.S.-Canada water quality agreement that may start 
in December, depending on our legislative schedule here; 
possibly November, but certainly December and then on into the 
next year, to update the hearings that we held 20 years ago. 
We, that I held with Bill Klinger, my Republican colleague at 
the time, so prepare for those hearings.
    You mentioned Water Enterprise Bonds. Four years ago, our 
Committee reported legislation to lift the cap on the Private 
Activity Bonds. The Administration then was not keen on doing 
this. They didn't threaten vetoes, but they sent messages out 
that this was not welcome, and the Ways and Means Committee 
stripped out of its legislation that authority that we provided 
to lift the cap and pointed out that the problem would be that 
there would be a decrease in revenue, as I discussed a moment 
ago, on the State Revolving Loan Fund program, there would be a 
loss of revenue to States that would all have to be offset. The 
Ways and Committee didn't want to do that.
    So, first, how much are you proposing in Water Enterprise 
Bonds and how do you address the issue of offsets?
    Mr. Grumbles. Mr. Chairman, first, can I say how excited we 
are to hear about your hearings on the Great Lakes water 
quality agreement? Sustainable solutions transcend political 
boundaries and agency boundaries, and it is important to 
identify priority areas to consider whether to revise a 
historic agreement.
    With respect to the Water Enterprise Bonds, that was four 
years ago. As we learn more about the challenges and the 
importance of providing new and innovative financing tools, the 
leadership of the EPA and the Department of Treasury came 
together and are now supporting removal of that State volume 
cap on Private Activity Bonds for water and wastewater, because 
we view it as a way to increase local choice and opportunity. 
When it comes to dollar amounts in numbers, the estimates are 
that that change to the U.S. tax code would result in some loss 
in revenue--I think it is less than $200 million--but that in 
the early years it would result in $1 billion or more in new 
money, new revenue for water and wastewater infrastructure and 
$5 billion a year or more in the later years of having the cap 
removed.
    So it is an important tool in this Country--which I think 
has one of the most robust capital markets in the world--to 
look for innovative financing. So we think now is the time to 
move that legislation, just like now is the time for targeted 
bipartisan clean water legislation on Good Samaritans, to 
remove the potential barriers, legal and bureaucratic barriers, 
to true Good Samaritans cleaning up impaired watersheds.
    Mr. Oberstar. Thank you. It sounds to me like Treasury has 
gone through a fiscal Head Start program here and picked up a 
little steam and learned a few things. A change of heart is 
always welcome. That is good to hear. Wonderful. And we will 
work with you on the issue of the Good Samaritan legislation.
    Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman.
    In June of 2007, the Corps and EPA released guidelines 
regarding the Supreme Court decision, Rapanos and Carabell. How 
is the implementation of the guidance coming along? Are permit 
applications, are they getting reviewed and processed, are 
permits being issued? What is going on with that?
    Mr. Grumbles. Well, I would just say from the outset, as JP 
and the Army Corps lead the day-to-day permitting, what I have 
seen in terms of the EPA's role in overseeing the 
jurisdictional determinations under the Clean Water Act, that 
the guidance is an important step in providing greater clarity 
and consistency and predictability. I know that a priority for 
the Congress and for the agencies has been reducing the backlog 
in permitting that was the result of the confusion that was 
created by the Supreme Court decisions, and we have seen a 
reduction in that backlog.
    Also, a very important part of that June guidance was an 
accompanying agreement, a memorandum between John Paul Woodley 
and myself to improve the coordination procedures on those 
jurisdictional determinations at the field level in the Corps 
and EPA offices, that if there is disagreement over those 
difficult to call wetlands, that they could be elevated through 
a process. We have seen a number of elevations, but it is a 
very small amount compared to the day-to-day jurisdictional 
determinations that occur in the field.
    Mr. Woodley. My comment would be that there is no question 
that the implementation of the guidelines is resulting in an 
additional amount of work for the individual permit writers on 
the individual permit level for each jurisdictional 
determination, and that is resulting in necessarily longer 
times being taken for jurisdictional determinations to be made. 
But with that observation, I will have to say that it is yet in 
the early innings for implementation on this. I am generally 
pleased with the way it is being implemented. It generally 
seems to be successful in its implementation, but we are 
evaluating it and I cannot make a definitive statement on it 
today.
    Mr. Boozman. So I guess kind of a follow-up, then, is you 
are comfortable that the word is getting out so that people and 
entities will understand in such a way that jurisdictional 
decisions are clear, consistent, so that they will understand? 
Does that make sense?
    Mr. Woodley. Yes, sir. My early indications are that it is 
reasonably positive, given the complexity of the requirement. 
So I am cautiously optimistic, but in a big program like this, 
you start something in June, you ordinarily don't know much 
definitive about it even by October or November. But we are 
definitely following it very, very closely, and as Mr. Grumbles 
indicated, there appear to be fewer issues between the two 
agencies than I had actually anticipated, although there are 
some and we are working through them one at a time.
    Mr. Grumbles. Congressman, I just want to add it is very 
important for us, when we issued the guidance, we understood 
this isn't the end of the process, this isn't the end of the 
story. This is needed detailed guidance with an accompanying 
handbook. We are going to see how it is being implemented in 
the field and we are also going to take comments from the 
public through December to see if we need to revise the 
guidance, reissue it, take another track, a different approach. 
But so far we have been focused on workshops, getting out 
information, and looking very carefully to see are there still 
some areas of uncertainty. And it is clear we need to continue 
to work on that and oversee it, and help answer, as quickly as 
we can, policy questions or legal questions that come up.
    Mr. Boozman. Very good. Mr. Grumbles, as you know, the 
Committee has done a lot of work trying to improve the 
scientific basis of our water programs, particularly focused on 
improving water quality standards, improving and monitoring 
data collection. What is the EPA doing to help ensure the 
success of these initiatives? I know that we faced, and still 
do face, a situation--I am from Arkansas. We interface with 
Oklahoma and Missouri with water quality issues and things, but 
one of the things that we found in doing that was that 
literally, as the universities talked from different States and 
things, that there was even basic disagreement about the 
measurements that are used, just really some very basic things. 
Are you all addressing some of those problems to make these 
things easier so that we can actually look at data and it kind 
of be able to----
    Mr. Grumbles. Sir, that is particularly important, 
recognizing we are a Nation of rivers and they can be 
interstate rivers. As you know and as Linda Eichmiller knows, 
there are times when it is really important to start with a 
common understanding of the problem and an understanding of 
what are the goals and what are the water quality standards 
that apply. So the agency is focused on several fronts in that 
regard to advance sound science and help decision-making 
legally defensible and collaborative efforts to resolve water 
quality disputes or problems.
    One very important component of that is on the water 
quality criteria themselves that States then use for 
designating the uses for their waters. We are very focused on 
continuing to improve the criteria, particularly in the 
recreational waters front pursuant to the Beaches Act of 2000, 
but also inland waters, looking at the best available science 
to update the criteria that we use for water quality standards.
    The other component, Congressman, is the use attainability 
analysis process. It is very important for States and 
localities to have a viable tool to modify or adjust their uses 
based on natural conditions or other changing conditions so 
that they can then get the designated uses correct. So that, 
coupled with our focus on monitoring, improving the Nation's 
water quality monitoring, we think will result in continued 
progress under the Clean Water Act regulatory programs, not 
just the permits that are based on technology controls, but on 
the water quality-based permits, which is more and more 
relevant in the 21st century.
    Mr. Boozman. Thank you very much.
    Thanks to the panel. Your testimony was very helpful.
    I yield back, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman from Arkansas for very 
thoughtful and probing questions.
    In response to one of those questions, Mr. Grumbles, you 
cited sort of a decline in the number of permits and the time 
taken to process them. Yet, the St. Paul District, Secretary 
Woodley, of the Corps cited, as has done other district 
engineering officers of the Corps, an increase in a number of 
permits, a 50 percent increase, in fact, in the number of 
permits and in the time taken to process them because of 
uncertainty of how to proceed.
    Now, in the aftermath of Scalia and Rapanos--I use that 
term loosely; Justice Scalia thought he was Senator Scalia for 
a time, or maybe Congressman Scalia. He was certainly 
legislating from the bench. He certainly did not read the 
opening paragraph of the Clean Water Act in making his 
decision.
    So we have roughly three scenarios: the Scalia test, 
relatively permanent waters; the Justice Kennedy test, 
significant nexus; and then we have the Administration test, 
which combines these two. So what are district offices to do? 
What is EPA to do? And how are you going to establish a clear, 
consistent, predictable interpretation of the Clean Water Act 
that does not raise the fears and concerns that have been 
forthcoming over these many months?
    And I will let you toss a coin to decide who wants to 
answer that.
    Mr. Grumbles. I am going to turn to John Paul. I just 
wanted to also clarify a statement. If I said, in terms of 
backlogs, permit backlogs, I meant jurisdictional determination 
backlogs. That since the issuance of the June guidance----
    Mr. Oberstar. Oh, I see. Okay. All right.
    Mr. Grumbles.--we have seen a significant decrease in the 
backlog of jurisdictional determinations, which then leads to 
the permitting process.
    But when you are having a hearing on the Clean Water Act 
and the future of it, permit backlogs is critically important 
too. And on the 402 front, the non-404 front, we have 
recognized for several years, with the States, that that is a 
key priority, and we all, working together, made significant 
progress because, as you get these permits up for renewal, 
rather than just an administrative continuance of the permits, 
it is an opportunity to update, to strengthen, and to improve 
those permits.
    And on 404, I will turn to JP, but just to say that our 
view on it is that we recognize, both agencies, that there is 
an added stress on the workload for the government agencies 
because we didn't choose to go with one of the tests or the 
other tests; we said you can use either one. If one doesn't 
meet jurisdictional standards and you don't assert 
jurisdiction, you can also go through the other one, and on 
those close-to-all areas, do it on a case-by-case basis, don't 
just categorically exclude those waters from coverage under the 
Act. So that puts added stress on the agencies.
    Mr. Oberstar. Thank you. We look forward to working with 
both EPA and the Corps, continuing a dialogue on streamlining 
the process and streamlining the permitting structure that we 
now work under.
    Secretary Woodley.
    Mr. Woodley. Thank you, Mr. Chairman. I think what our 
experience has been to date is that the Scalia opinion test is 
not difficult to administer, and there is very little doubt--
there never has been great doubt--with respect to the 
jurisdictional status of waters described in that rule. The 
issue that we have had that is causing any uncertainty that 
exists is the application of the significant nexus test, which 
is something that we had never done before, and which is not a 
clearly defined, bright line test. Significance of nexus to a 
navigable water is not something that can be done readily 
determined from easily stated and well understood standards or 
data that has been routinely collected in the past or is 
readily available from open sources.
    The result is that our guidance that we developed with EPA 
has sought to, to the maximum extent possible and in the 
absence of rulemaking, to indicate what the agency's views are 
with respect to those areas that can clearly be found to be 
significant, and then to suggest criteria that can be used in 
the field to make a significance determination beyond those 
areas; and that is, I think, the best we can do at the time.
    Mr. Oberstar. Thank you.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. I appreciate you and 
Ranking Member Mica in holding this hearing today on the 
successes and future challenges of the Clean Water Act. I 
especially appreciated the historic film footage that we got to 
see earlier in the hearing. It reminded me--and I have to 
acknowledge before I ask a few questions--one of my mentors I 
think deserves a little bit of recognition here, but during 
that time period, in the early 1970s, we had a young first-term 
Senator named Tom Eagleton from Missouri, and he was very 
instrumental in crafting the Clean Water Act from his position 
on the then Senate Public Works Committee. He just passed away 
recently, but I know this was near and dear to him.
    I wanted to, I guess, focus my short time in questions to 
the Secretary and Mr. Grumbles, really focusing on the 
Administration's commitment to the Clean Water Act and, in 
particular, local to St. Louis, where I am from and the people 
that I represent. We have had a long-term problem with combined 
sewer overflows, with, sadly, some of our crumbling 
infrastructure dating back to the Lincoln administration, if 
you can believe that. In fact, the EPA is currently suing the 
St. Louis Metropolitan Sewer District for violations of the 
Clean Water Act caused by CSOs.
    But, simultaneously, the Administration has refused to 
spend substantial funding on combined sewer overflows or other 
environmental infrastructure projects. In fact, the Army Corps 
fact sheet states bluntly: ``environmental infrastructure is 
not a budget priority.'' Well, I think the Clean Water Act 
really makes it clear that it is a Federal priority, and I 
wanted to ask you both to comment on why you think this has not 
gotten the greater priority in terms of addressing this issue 
with combined sewer overflows and how we can give them a better 
priority. I know St. Louis is not the only part of the Country 
that has this issue.
    Mr. Woodley. Thank you very much for your question, Mr. 
Carnahan. This is an area that has been very troubling to me 
during my entire tenure, particularly because when I was 
serving as Secretary of Natural Resources in Virginia, two of 
our major cities had combined sewer overflow issues, had 
judicial orders and consent decrees that they were operating 
under--I am referring to the cities of Richmond and Lynchburg--
and were very aggressively moving forward, and when I was at 
the State level, I supported State support for those efforts, 
although the localities were shouldering the vast majority of 
the burden, and I was very grateful for Federal support. At 
that time, the Federal support that came was through the EPA 
arena, it came as a grant through the EPA process.
    The fact sheet that you mentioned I think should be 
regarded as specific to the Corps of Engineers program and 
should not be regarded as an overall Administration position on 
sewage treatment projects within the overall Federal budget. 
Our position has been--and this is not just this 
Administration, this goes back many years--that that type of 
project is not within the core--that is, C-O-R-E--mission of 
the Corps of Engineers--C-O-R-P-S. So it is not a question of 
opposing them, it is a question of suggesting that when we 
devote resources into the Corps of Engineers budget, they 
should be, generally speaking, if at all possible, focused on 
the Corps of Engineers' primary missions of navigation, flood 
control, ecosystem restoration, and other ancillary missions of 
hydroelectric power production, and aquatic-based outdoor 
recreation.
    So when our fact sheet talks about that, that should be 
understood very narrowly within the context of the Corps of 
Engineers budget process.
    Mr. Carnahan. Well, I might suggest--and I will use, again, 
the specific example of St. Louis, clearly, within the core 
mission of the Corps, as you mentioned, is ecosystem 
restoration, and when we have combined sewers that are emptying 
directly into the Mississippi River, that that, to me, 
certainly squarely fits in that definition. So certainly they 
are connected. I think that is really difficult to separate 
that out.
    Mr. Woodley. Thank you, sir, but it is not within our 
definition of aquatic ecosystem restoration. Not meaning to 
quibble with you, but it is considered a separate category.
    Mr. Grumbles. Congressman?
    Mr. Carnahan. Yes.
    Mr. Grumbles. From an EPA perspective, environmental 
infrastructure is a priority. It is a priority on several 
fronts. The State Revolving Fund has, over the years, provided 
approximately $8 billion in funding for CSOs and SSOs, at least 
by my count. Our position is three-fold. One is from a Clean 
Water Act enforcement standpoint, we owe it to communities 
downstream, to the Gulf of Mexico to ensure that national 
standards on nutrients and pathogens are met, so a commitment 
to continue to put an enforcement priority, when the Clean 
Water Act is being violated due to CSOs, combined sewer 
overflows.
    The second step, though, is because we recognize 
communities across this Country, like St. Louis, face very 
large price tags to bring their systems up to grade and to meet 
the Clean Water act. So the question is how best to do that, 
and the overall position of the agency is State Revolving Fund 
monies, the seed money that the Federal Government has provided 
over the years has led to a very strong and successful program 
to help further leverage funds, but we need to ensure that 
rather than the Federal taxpayer, the local rate payers need to 
be the ones who primarily finance those important Clean Water 
projects. So working with the communities to instill a sense of 
full cost pricing so that the rates reflect the needs of those 
important projects is a priority for us.
    The third is to look for innovative approaches to reduce 
the costs and increase the environmental benefits, and that is 
through the concept of green infrastructure. Greening the 
watershed and in an urban environment that can be a challenge, 
but it can significantly reduce the costs which are extensive 
for communities that have CSO long-term control plan needs and 
requirements.
    Mr. Carnahan. I appreciate the fact that you are going to 
be visiting St. Louis later this week, and look forward to 
working with you.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman.
    The gentleman from South Carolina, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman, and thank you to the 
panel for coming and sharing some great information and being a 
part of trying to find a solution to where this Country will be 
going. I know that my friend from Georgia testified that they 
are in a tremendous drought down in his region, and we can 
testify to the same. We thought we had a great watershed that 
would sustain us for a long, long period of time, but we are 
noticing a lot of stumps now where water used to be, and we are 
competing, I guess, with Georgia and with North Carolina for 
the resources of good clean water, and I know this a major 
problem you will have to be dealing with pretty quick in the 
future.
    One of the problems we have got is we have a hydro system 
that is on that lake, and because of the saltwater intrusion 
coming up that river, we have to dump some of that good water 
that we need for--we also have some water systems tied into 
this lake system and, of course, we are competing with those 
other entities for that same water. This is going to be a major 
problem, as we see, down the road. Are we going to be more 
concerned with the saltwater intrusion than we are from the 
pure water we have to use in order to keep that from happening? 
This is a major concern.
    But I appreciate what you have done. I know the Harbor of 
Charleston now is a great place to be and once before, I guess 
20 years ago, we were dumping raw sewer there, and this is a 
major undertaking. We got a $100 million project now replacing 
those 100 year old tunnels. It is 100 feet down below the city 
and we are grateful for EPA and your support there.
    My question would be I know that as we passed the 
guidelines based on the Supreme Court ruling. Could you give us 
a clear definition of do we have a clear definition each time, 
as we try to define what an isolated wetland really is?
    Mr. Woodley. Yes, sir. I believe that the work that we have 
been doing in the area of isolated wetlands has made the 
definition increasingly clear, and I think that we have rarely 
had an issue concerning that, although--well, we have very 
recently published--in fact, about the same time we published 
these guidelines--published a new manual that sought to codify 
the best practices; in other words, not to change the rules, 
but we did an entire survey of all of our districts and all of 
our divisions and asked them how they were applying, in various 
situations, whether or not a wetland or stream was isolated, 
and we found that there were a good bit of difference between 
the various districts, but that in every case there seemed to 
be a sort of a center of gravity where most of the districts 
were applying the same type of rule.
    And we codified that as the best practice from the experts 
in the field and we have issued that as a manual, more of a 
training guide. It is not a policy, it is not legally 
enforceable and doesn't change any of the rules that we use, 
but it is a training guide that is available not only to the 
Corps of Engineers professionals, but also to landowners and 
professionals in the field and surveyors and private engineers 
to let them know what is the Corps people looking at when they 
ask the question of whether something is isolated.
    That is also fairly new, so I really can't make any 
representations about how well it is working, but that was an 
initiative that I took in response to the finding that I made 
when I was out in the field, that they were all trying to 
wrestle with these issues and to do the best they could, but 
that sometimes in Charleston you have got one rule and in 
Wilmington you had the same people trying to do the same thing 
and coming up with a slightly different interpretation. So I 
hope we can continue to improve that, but it is certainly 
something we are focused on.
    Mr. Brown. Is part of that dialogue, do you think you will 
come up with some standard of what streams are navigable and 
which ones aren't? Do you all have any plan to categorize the 
different bodies of water that says, well, if you are attached 
to this it is isolated wetlands; if you are not attached to 
this it is not?
    Mr. Woodley. So far, we have not moved in that direction, 
and we are dealing with the questions based on who is applying; 
and we make determinations specific to particular application. 
Then, of course, that will set precedent for any applications 
in the future. But I believe and I am hopeful that that is 
something that, working with EPA, we will be able to do in the 
future because I mentioned that some of these issues have come 
forward and been elevated under our guidelines.
    One of them, in fact, involved a disagreement between the 
field offices as to whether a particular stream was in fact a 
navigable water, and that seemed to me something that we really 
need to nail down and that we can't be having that level of 
uncertainty within the program. But, generally speaking, the 
navigable waters are fairly well known, but there is that area 
of uncertainty the higher you go up in the watershed.
    Mr. Brown. And sometimes we would have some disputes 
between what the Corps identifies and what EPA identifies, and 
that makes it a conflict with those people that are trying to 
accomplish whatever goals they are trying to do out there.
    Mr. Grumbles. Congressman, I just want to say that since we 
have been working together on this issue over the years, and 
certainly since the June guidance in light of the Supreme Court 
decisions, there is a commitment of the two agencies to work 
together in an integrated fashion and make decisions together. 
There are disagreements at times in the field, and we just need 
to work through those.
    On the isolated intrastate non-navigable wetlands--and the 
Supreme Court spoke very clearly about limiting our ability to 
assert jurisdiction over those--we are spending a lot of time 
trying to provide greater clarity and consistency for 
jurisdictional determinations, as JP mentioned, particularly in 
those areas where the difference between isolated and adjacent, 
and then, as we have committed to do, is use the significant 
nexus test or standard that Justice Kennedy articulated; and 
that is where we agree we need more field experience and we 
need to work with the regulated community to get their views on 
how best to make those decisions and use the best science that 
is available.
    Mr. Brown. I really do appreciate this cooperation between 
the two of you; I think it really will help clarify some of the 
questions that are out there.
    Mr. Chairman, I know my time has expired. Thanks for 
holding this hearing.
    Mr. Oberstar. Thank you very much for those questions, 
which go to a very core issue here for both agencies.
    Before I go to Ms. Richardson, Mr. Grumbles, you said 
that--or maybe it was Secretary Woodley who said that some 2 
million 700 thousand plus acres of wetlands have been restored, 
protected, or improved in the last three years. Do you have a 
compendium of those? Can you make that available for the 
Committee, please?
    Mr. Woodley. Absolutely. That has been made public and 
published by the White House on an annual basis, and it is a 
remarkable record working with, of course, our agencies. But to 
be perfectly fair, I think that our agencies played a role, but 
that the Agriculture Department under the authorities that the 
Congress has given it and the farm bills over the years, and 
the Interior Department, working within its authorities, have 
made massive contributions as well.
    Mr. Grumbles. And, Mr. Chairman, that important goal that 
the President laid out, it doesn't rely on Clean Water Act 
regulatory compensatory mitigation or the other regulatory 
tools. What it was is a goal under cooperative conservation and 
stewardship, using various programs that we all have, 
particularly Interior and USDA, to make significant progress 
and to measure it and to be accountable and identify precisely 
how we counted up the acres on that, and that is what we have.
    Mr. Oberstar. Thank you. We will receive that for the 
Committee record and pertinent parts of it will be included in 
the Committee hearing at this point.
    In your June 5 guidance document, a footnote says, ``The 
Supreme Court held use of isolated non-navigable interstate 
waters by migratory birds is not in itself a sufficient basis 
for the exercise of Federal regulatory jurisdiction under the 
Clean Water Act. This guidance does not address the SWANCC 
case, nor does it affect the joint memorandum issued by the 
general counsels of EPA and the Department of the Army.''
    That raises questions about what rulings you would make on 
isolated water. If a previous mitigation project had taken 
place in an isolated water, and if we use the EPA core 
guidance, is this water now considered non-jurisdictional? 
Could mitigation land be redeveloped?
    Mr. Grumbles. Well, there are two guidances that we are 
working under, the 2003 SWANCC guidance--and the basic point 
there is in the guidance we held open the possibility that 
there could be circumstances under (a)(3) paragraphs of our 
regulations where there could be an assertion of jurisdiction 
over isolated interstate non-navigable waters without relying 
on the migratory bird rule provisions. As a legal matter, that 
is still possible, but as a practical matter we had not 
asserted jurisdiction over those types of wetlands based on 
that guidance, which is still in place.
    The subsequent guidance, the June 2007 guidance, the 
Rapanos guidance, we really wanted to focus in on not on the 
isolated interstate non-navigables, but on the precise types of 
wetlands that were at issue in the Rapanos and Carabell 
decisions; and there we took the opportunity to flush out the 
principal that we will use either the Scalia standard or the 
Kennedy standard and go through that analysis for wetlands and 
also for various types of streams and water bodies.
    JP?
    Mr. Woodley. Mr. Chairman, that is a very good point and a 
very good question, and the answer, I believe, straight answer 
would be that those mitigation lands might very well be found 
to be non-jurisdictional under the Supreme Court decision. 
However, there is a bit of a safety net in the program, and 
that is that, routinely, we require a permanent easement for 
conservation to be filed as a land record in favor of the 
United States against any lands that we accept as mitigation 
for loss of wetlands, and if that easement was recorded, it 
would be enforceable, regardless of the jurisdictional status 
of the land that was later determined to be isolated.
    Mr. Oberstar. Thank you.
    You know, it is ironic that on this 35th anniversary of the 
Clean Water Act, that so many questions have been raised about 
it in light of the two Supreme Court decisions, and opening an 
opportunity for some people who disagree with the Clean Water 
Act, many aspects of it, to raise questions and to begin to 
undermine it. But the confusion created here, as summed up by 
questions that have been raised, that the guidance would 
include constructed open water ponds on golf courses and 
ornamental fountains or stormwater retention areas as 
additional wetlands. I don't think that is your intention, is 
it?
    Mr. Grumbles. I will tell you one thing that we are all 
committed to doing is improving the methodology for the 
national wetlands inventory, which I know you are familiar 
with. And in the context of that national wetlands inventory, 
the methodology that has been used, the cordon methodology over 
the last decade or more, has included a category for water 
bodies, water features such as the one you described.
    What we are committed to doing is working with the Fish and 
Wildlife Service and other agencies that, as they take the lead 
in preparing the next national wetlands inventory to help 
measure progress towards no net loss, that we have special 
consideration of those types of water features so that we can 
have as accurate and clear a message and picture of progress 
that we are making or challenges that remain ahead.
    Mr. Oberstar. Thank you. We will be pursuing this matter 
with you.
    Ms. Richardson, we are about to have a vote. There it goes. 
You will have the final word with this panel.
    Ms. Richardson. Actually, sir, I think the questions were 
well covered, and, in my preparation, not only did I read the 
background, but my chief of staff made sure that I watched 
Chinatown this weekend, the whole story about the efforts of 
water in California. So I enjoyed all the questions and look 
forward to serving. Thank you, sir.
    Mr. Oberstar. Thank you.
    Mr. Boozman, do you have anything further?
    Mr. Boozman. No.
    Mr. Oberstar. I want to thank this panel for their very 
thoughtful comments, excellent preparation, complete statements 
that will all be included in the record. And anything you wish 
to supplement will be accepted for the record as well.
    I will call our second panel, but then we will have to 
recess for the vote and resume as soon as we can thereafter. 
Our second panel is Ms. Derry MacBride, Chairman of the Garden 
Club of America. And I particularly welcome the Garden Club of 
America because you were the first ones. You were there in 1955 
and 1956, well, let me say, long before you were born. But the 
Garden Club of America were there as the original supporters of 
the clean water legislation of my predecessor, John Blatnik.
    Mr. Christopher Westhoff, Assistant City Attorney, Public 
Works, General Counsel for the City of Los Angeles, on behalf 
of the National Association of Clean Water Agencies; Mr. Peter 
Lehner, Executive Director of Natural Resources Defense 
Council; from our State of Minnesota, Kevin Paap, my good 
friend, President of the Minnesota Farm Bureau, with whom we 
have had many discussions about the Clean Water Act and the 
legislation I have introduced to restore it; Mr. Mark 
Singleton, Executive Director, American Whitewater, on behalf 
of the Outdoor Alliance; and Mr. James King, Jr., President of 
Dekalb Pipeline, Conyers, Georgia, on behalf of the National 
Utility Contractors Association.
    If all of you want to take a stretch and a deep breath, we 
will resume in roughly 20 or 25 minutes, depending on the time 
it takes to conclude this vote.
    [Recess.]
    Mr. Oberstar. All right, we will resume our sitting. I 
walked over from the votes with Mr. Boozman, who had to stop by 
his office for a moment, but he invited me to continue the 
hearing, and he will be along shortly.
    So we will begin with Ms. MacBride. Again, I want to thank 
you and your predecessors of the Garden Club of America for 
being the first ones to step forward to support a comprehensive 
program of clean water for America. You were there at the 
beginning and you are here at the 35th anniversary. On behalf 
of my predecessor, John Blatnik, I welcome and thank you.

TESTIMONY OF DERRY MACBRIDE, CHAIRMAN, GARDEN CLUBS OF AMERICA, 
    NATIONAL AFFAIRS AND LEGISLATION COMMITTEE; CHRISTOPHER 
   WESTHOFF, ASSISTANT CITY ATTORNEY, PUBLIC WORKS, GENERAL 
COUNSEL, CITY OF LOS ANGELES, CALIFORNIA, ON BEHALF OF NATIONAL 
 ASSOCIATION OF CLEAN WATER AGENCIES; PETER LEHNER, EXECUTIVE 
   DIRECTOR, NATURAL RESOURCES DEFENSE COUNCIL; KEVIN PAAP, 
 PRESIDENT, MINNESOTA FARM BUREAU, ON BEHALF OF AMERICAN FARM 
BUREAU FEDERATION; MARK SINGLETON, EXECUTIVE DIRECTOR, AMERICAN 
  WHITEWATER, ON BEHALF OF OUTDOOR ALLIANCE; JAMES KING, JR., 
   PRESIDENT, DEKALB PIPELINE, ON BEHALF OF NATIONAL UTILITY 
                    CONTRACTORS ASSOCIATION

    Ms. MacBride. What a warm welcome. Thank you so much, 
Chairman Oberstar. I really appreciate that. Thank you. And to 
Members of the Committee, as well as the Chairman, I thank you 
very much for inviting me here to speak today on the historical 
relationship between the activities of the Garden Club of 
America here in Washington and the history of the Clean Water 
Act.
    I also wanted to say, Chairman Oberstar, I know you have 
been a great supporter of GCA for a long time, and we hear it 
from a variety of sources, and we all very much appreciate 
that. So thank you.
    I would like to briefly introduce myself, tie in a bit of 
that history together, and then I appreciate that you mentioned 
earlier that my testimony will be entered into the record.
    So I am the Chairman of the National Affairs and 
Legislation Committee of the Garden Club of America. The Garden 
Club of America has 17,600 members in 197 clubs across the 
Nation and has long enjoyed an excellent working relationship 
with Members of Congress on issues related to our environment. 
We greatly appreciate Congress's past consideration of our 
views and the opportunity to offer our thoughts on the 35th 
anniversary of the Clean Water Act.
    Since its founding in 1913, the Garden Club of America has 
been a strong advocate of conservation and sustainable uses of 
our natural resources, as well as efforts to advance public 
awareness of the state of our environment. We have long been 
involved in legislative activities since the earliest days. In 
1921, one of our founders testified before Congress on behalf 
of the national parks.
    Many GCA members from across the Nation were active in the 
1930s in a battle to save the California redwoods. Ladies 
actually traveling from across the Nation and way up into 
Northern California, into the depths of the redwoods, came in 
full regalia with steamer trunks in toe, no less, and went so 
far as to purchase a 7,000 acre redwood grove and donate it to 
the State of California.
    I actually visited that redwood grove, the GCA redwood 
grove, two weeks ago in Northern California, and it is really a 
formidable sight to behold. I hope you all get a chance to 
visit if you haven't been there.
    Much further down the road, during Federal hearings in 
1967-68, GCA formally supported the preservation of estuarine 
and marine resources. It was at this time that GCA formed the 
National Affairs and Legislation Committee to represent its 
concerns in Washington. Our NAL Committee follows most 
environmental legislation and advocates for protection of our 
natural resources, and it works in tandem with the Conservation 
Committee, which provides background research and education on 
critical environmental issues. Our two Committees then send our 
information and policies back to the ground forces in all our 
local clubs.
    We also surge into your offices every February, after our 
annual conference, to make sure that you haven't forgotten us 
and our views.
    While well intentioned, earlier efforts such as the Water 
Pollution Control Act of 1948 did not come close to addressing 
the continued contamination of waters. By the end of the 1960s, 
it became clear that more was needed. A number of beaches 
across the Country had been closed to polluted waters and the 
public, as mentioned by the Chairman, had become increasingly 
aware of pollution as a national concern when it was documented 
in many of the Country's best known waterways, including the 
Great Lakes, the Potomac River, and Boston Harbor.
    As the Committee knows, and as was also mentioned by the 
Chairman earlier, the exhibit A of our national water pollution 
crisis was the 1969 fire on the surface of the polluted 
Cuyahoga River in Cleveland, Ohio. The fire was triggered by 
the mix of industrial waste and marine engine oil, and it 
damaged two railroad bridges and convinced many doubters that 
addressing water pollution had to be placed in the top tier of 
the Nation's public policy agenda.
    In 1972, as a result of a broadly based bipartisan effort, 
Congress passed a set of amendments to the then 24 year old 
Water Pollution Control Act. The new amendments were intended 
to reduce the pollution in the Nation's waters through the 
regulation of pollutant discharges by business and industry. 
These amendments later became known as the Clean Water Act. One 
of my predecessors, as chair of our National Affairs and 
Legislation Committee, Ellie Kelly, testified before Congress 
in support of these efforts.
    In 1987, Congress reauthorized the act and added new 
provisions strengthening facilities. Roughly the same time, 
another of my predecessors, Winston McIntosh, established 
something called the Hot Line. At that time, it was an 
answering machine with recorded updates of the status of 
environmental issues of interest to GCA so that our members 
across the Country could stay abreast of activities in the 
Capitol. As you might imagine, with the advent of computers and 
electronic communication, the Hot Line has been replaced by an 
extremely detailed, thorough, and electronically distributed 
legislative update and status chart.
    Today, the Clean Water Act is generally regarded as one of 
the most successful pieces of environmental legislation in 
American history. The Great Lakes and numerous urban harbors, 
and even the Cuyahoga River, have been revitalized. Despite 
population growth, pollution levels in the Nation's waters were 
reduced 36 percent between 1972 and 1996, and on the 25th 
anniversary of the Act the EPA estimated that--and I am not 
going to detail them all due to time--that significant advances 
had been made, and they will just be mine in the record, but 
they basically had to do with U.S. rivers and lakes, industrial 
discharges, sewage treatment, wetland losses, crop land soil 
erosion. Indeed, many problems still exist, but these advances 
show the need for clearer strong regulations and strict 
enforcement.
    After the 25th anniversary, GCA was invited by the 
Administration to participate in a White House conference on 
global warming, the American Heritage Rivers Initiative, and a 
small group developing recommendations on the right-to-know 
rules regarding safe drinking water. The group consisted of 
seven environmental organizations, led by Carol Browner, 
Administrator of the EPA.
    Okay, I know I am running out of time, so I am just going 
to skip a little more along here and just say we also responded 
to the increasing volume of legislation by promulgating 
position papers that set forth the specific points we wish to 
see addressed in legislation. We are very much aware, for 
example, of the critical and delicate role our Nation's 
wetlands play in water quality, soil maintenance, and watershed 
vitality.
    Accordingly, our current position paper on clean water 
encourages a vigorously enforced clean water and clearly states 
our support for ``the preservation and protection of wetlands, 
including strict standards for any method of wetland 
alteration. Wetlands and their associated streams are an 
extremely productive part of the watershed. Even when they are 
in a temporarily altered, less visible, or tangible state, they 
are still very much functioning and in no less need of 
congressional protection.''
    The 35th anniversary of the Act marks an opportunity to 
honor that Act by sustaining and strengthening its original 
objectives. We are particularly pleased that with the 
leadership of Chairman Oberstar, many of you have co-sponsored 
the Clean Water Restoration Act of 2007, introduced as H.R. 
2421. The provisions of this Act are critically needed to 
reaffirm the original intended scope of the Clean Water Act, 
which guaranteed all Americans the right to clean water.
    Congress's response to the water pollution crisis of the 
1960s reminds us that the history of strong legislation to 
protect our environment is largely one of bipartisanship. The 
Clean Water Act of 1972, the Clean Air Act of 1970, and 
Endangered Species Act of 1973 were all passed 30 or 35 years 
ago under Republican administration in a Democratic Congress. 
Indeed, in my own home State of California, the California 
Environmental Quality Act of 1970 was enacted by a split 
legislature and signed into law by Governor Ronald Reagan.
    By and large, these critical pieces of legislation have 
served the public well over all these years, and I hope that 
level of bipartisanship can continue today with respect to H.R. 
2421. We ask that both sides of the aisle recognize that the 
pollutants and impurities from which Americans seek protection 
travel through aquifers, marshes, and wetlands with no apparent 
regard for the visibility of nearby navigable water. The reach 
of the Act therefore needs to be expressed as broadly as 
possible, lest Congress's intent to maintain protections of the 
Act fall victim to simple hydrology.
    In conclusion--always a well received phrase--in the 35 
years since the enactment of the Clean Water Act, our 
population has grown substantially and seriously overtaxed our 
limited resources. Those who worked so hard to pass the Act in 
1972 may have expected that phenomena, but they probably did 
not predict the more recent climate change that is already 
having myriad adverse impacts on our resources and outlook for 
the future. What we have learned over the last few years surely 
demands that we redouble our commitment to this Country's 
natural resources announced in 1972.
    As in 1972, we look to Congress to act for us as custodians 
of our vital, treasured resources. Today's hearing offers me 
great hope that the trust we have placed in Congress to protect 
these resources on which the very fabric of our future depends 
is well placed. You have an important opportunity through this 
Committee to leave a positive legacy for the future by 
restoring the integrity and intent of the original Clean Water 
Act. We certainly support that effort.
    And I thank you on behalf of the Garden Club of America, 
the National Affairs and Legislation Committee, but more 
importantly, however, I thank you on behalf of our children and 
future generations who are surely entitled to the broad 
protection of the Clean Water Act as envisioned by its 
supporters 35 years ago. Thank you very much.
    Mr. Oberstar. I thank you for that splendid statement and 
for that sweep of history of involvement of the Garden Club of 
America and for your presence here today.
    Ms. MacBride. Thank you.
    Mr. Oberstar. Mr. Westhoff.
    Mr. Westhoff. Thank you. Good afternoon, Chairman Oberstar 
and Members of the Committee. I am Assistant City Attorney and 
Public Works General Counsel for the City of Los Angeles. 
Today, I am testifying as President of the National Association 
of Clean Water Agencies, NACWA. NACWA is the only organization 
dedicated solely to representing the interests of the Nation's 
public wastewater treatment agencies who treat and reclaim more 
than 18 billion gallons of wastewater each day.
    I am pleased to be here today as we celebrate the 35th 
anniversary of the Clean Water Act, and I want to thank you for 
holding this important hearing as we face some serious 
challenges to the goal of clean water as we move into the 21st 
century. This testimony will focus on the water and wastewater 
infrastructure funding crisis and the need to transition to a 
more adaptive watershed based approach that can meet the 
complex resource-intensive challenges of the future. NACWA's 
short-and long-term recommendations to accomplish these goals 
are set forth in a key NACWA report being released today 
entitled Recommendations for a Viable and Vital 21st Century 
Clean Water Policy.
    In the 35 years since the passage of the Clean Water Act, 
our Nation has made tremendous progress in addressing water 
pollution problems. The Federal-State-local partnership, 
exemplified by the Act's construction grants program, led to 
the construction of numerous state of the art facilities which 
now constitute the most advanced group of regional wastewater 
treatment systems in the world. Since that time, the Act's 
focus has been on addressing the point sources of pollution 
that, at that time, constituted the most immediate concern for 
the improvement of water quality.
    Communities now enjoy the environmental and economic 
benefits of cleaner water, such as thriving waterfront 
communities in Cleveland and Chicago, restored fisheries in 
Lake Erie and the Potomac River, and increased revenues from 
real estate investment, recreation and tourism in many coastal 
communities, including Los Angeles.
    Today, however, we find ourselves at a historic junction 
for the Nation's clean water future with our population 
expected to increase by 100 million people over the next 30 
years, driving a massive industrial expansion needed to meet 
this demand.
    The costs associated with this investment in clean and safe 
water have also risen, while the Federal contribution to these 
clean water improvements has dwindled. The Federal-State-local 
partnership that was so successful during the early days of the 
Clean Water Act has eroded to the point that municipalities now 
shoulder over 95 percent of the costs associated with providing 
clean water. Federal Assistance simply has not kept pace with 
the financial needs of clean water, declining more than 70 
percent since the 1970s. The Nation now faces a funding gap of 
$300 billion to $500 billion over the next 20 years between the 
current levels of spending for wastewater infrastructure and 
the total funding needs, and this is according to the 
Environmental Protection Agency, the Congressional Budget 
Office, and the Water Infrastructure Network.
    In the 1990s alone, Los Angeles spent over $1.6 billion to 
upgrade the Hyperion Treatment Plant to full secondary 
treatment. This was only one plant, and only a small portion of 
this expenditure was funded through the Federal Clean Water 
Grant Program. In this decade, Los Angeles will spend more than 
$4 billion to address the physical needs of its aging 6500 mile 
long wastewater collection system and other wastewater 
infrastructure, and there is no grants program. To meet this 
aggressive expenditure program, rates have already been raised 
7 percent per year for each of the past five years, and in 2008 
our infrastructure team will ask our city council for a nearly 
9 percent rate increase for each of the succeeding five years.
    A new approach to doing business in the 21st century and a 
return to sustainable, Federal-State-local partnership to 
bridge the funding gap are desperately needed. NACWA 
appreciates the Chairman and the Committee's leadership in 
passing H.R. 720, the Water Quality Financing Act of 2007, 
through the House. This bill marks an important first step, but 
NACWA believes that without a long-term clean water trust fund, 
clean water agencies will be hard-pressed to carry out their 
important mandate to protect the environment and public health 
in a sustainable manner.
    Also, to achieve water quality progress in a sustainable 
manner, NACWA believes that short-and long-term changes are 
needed to align current environmental laws into a 
comprehensive, holistic watershed approach. In March of 2007, 
NACWA formed the Strategic Watershed Task Force, made up of 
leaders of the Nation's clean water agencies to investigate how 
a watershed approach may still prove to be the solution to 
emerging water quality issues. Adopting a watershed approach 
allows communities to combine the issues of water quality, 
quantity, and habitat together when forming an integrated water 
resources management plan.
    As a result, coordination between water related programs is 
dramatically improved, the division between traditional 
regulatory categories are dissolved, and communities have the 
needed flexibility to make management decisions based on 
achieving the maximum environmental benefit. This ensures the 
most effective use of taxpayer dollars, ratepayer dollars, and 
other public funding.
    Many changes must occur within current water quality 
management practices before a true watershed approach can be 
implemented. NACWA's Strategic Watershed Task Force has 
developed a number of short-term and long-term recommendations 
to better facilitate a move toward a watershed approach as the 
basis of America's water policy in the 21st century. These are 
fully set forth in my written testimony and in NACWA's report.
    It is critical to align current laws and regulations with 
the watershed approach. Currently, municipalities considering 
the watershed approach face regulatory and legislative 
roadblocks that hamper cooperation. Different pieces of 
legislation--including the Clean Water Act, the Safe Drinking 
Water Act, the Clean Air Act, and the Endangered Species Act--
do not currently allow for the prioritization of watershed 
needs that can result in greater overall benefits to a 
watershed. Also, the separation of EPA's Office of Enforcement 
and Compliance Assurance from program offices such as the 
Office of Water, often results in the targeting of violations 
that have little or no economic impact, creating an adversarial 
relationship with those who EPA regulates.
    Taken together, our recommendations represent a major 
programmatic shift that is necessary to make further progress 
in continuing to clean up America's waters. As we celebrate the 
35th anniversary of the Clean Water Act, it is again time to 
expand our focus from an almost exclusively point source 
orientation to one that examines all sources of pollution, from 
relying largely on technologically based standards to a net 
environmental benefit approach, and from a focus on process to 
a focus on environmental outcomes.
    We have made tremendous progress in cleaning up our 
Nation's waters over the past three and a half decades. These 
successes should strengthen our resolve to complete the hard 
work ahead and recommit to the Nation's water quality via a 
holistic watershed approach. Even a truly holistic watershed 
approach, however, cannot eliminate the massive clean water 
funding gap facing the Nation's clean water agencies and 
communities. Again, we must move forward to address this issue 
now through a sustainable, long-term Federal, State, and local 
financial partnership via a clean water trust fund. Absent such 
action, the funding gap will widen and many of the water 
quality gains we have achieved during the past 35 years will be 
lost.
    NACWA looks forward to working with this Committee to 
ensure sustainable water quality progress for future 
generations of Americans. Thank you, and I look forward to your 
questions.
    Mr. Oberstar. Thank you very much, Mr. Westhoff.
    Mr. Lehner?
    Mr. Lehner. Thank you, Chairman Oberstar and honorable 
Members of the Committee. I am Peter Lehner, Executive Director 
of the Natural Resources Defense Council, formed in 1970 and 
quite involved in the passage of the original Clean Water Act 
in 1972.
    As someone who has enforced and implemented the Clean Water 
Act for almost a decade on behalf of New York City and almost 
another decade on behalf of New York State, and now on behalf 
of our members in the public at NRDC, it is truly an honor to 
be here with you today on the 35th anniversary of the Clean 
Water Act and to honor the history of the Clean Water Act by 
discussing how we can improve it.
    The Act had a terrific youth and early adulthood. We see 
successes around us. But while our waters did get cleaner over 
the first years of the Clean Water Act, progress has now 
stalled. EPA has not yet released a comprehensive water quality 
inventory status since 2000, but even back then the trend was 
towards increasing percentages of impaired waters. Other more 
recent studies also show increasing pollution.
    But perhaps that is just middle age for the Clean Water 
Act, where the tools of 35 or 20 years ago are not exactly the 
right ones for the current problem. What is converting this, 
however, to a mid-life crisis for the Clean Water Act are 
persistent efforts to weaken the Clean Water Act's protections 
and by government failures to implement that Act rigorously and 
fund it adequately.
    Looking forward, the Act is not spry enough to handle all 
of the Nation's water quality challenges alone. The Act needs 
both specific tuning up and more general re-examination to 
regain the momentum toward clean and safe water in the face of 
our growing and changing society and our changing climate.
    Prior to 1972, we had a water pollution emergency in the 
U.S., much like a number of developing countries face today. 
Industrial pollution, untreated sewage, and agricultural waste 
degraded our waterways. Two-thirds of them weren't safe to use. 
Previous laws relying on a case-by-case approach that, 
unfortunately, this Administration is urging with respect to 
wetland protection, had obviously failed to get the job done. 
The Clean Water Act reversed that notion that discharges were 
authorized unless they could be shown to cause a specific 
problem in a specific water body. That was one of the principal 
and most successful innovations of the Act, that changing of 
the burden of proof.
    The Act also ushered in a substantial infusion of Federal 
money to build new sewage treatment plants and upgrade existing 
plants nationwide. The dredge and fill permitting program 
reduced wetland loss by three-fourths, and the law recognized 
that carefully overseeing self-monitoring and swift, sure 
enforcement is a key to ensuring high rates of compliance and a 
level playing field.
    The wisdom of many of Congress's innovations remain 
apparent today. Industrial pollution sources generally have 
been addressed effectively by the law's permitting program with 
clear enforceable limits, self-reporting, and both citizen and 
governmental enforcement. Indeed, I think it is fair to say 
that the NPDS program is probably one of the most successful 
environmental programs in the Country, if not the entire world.
    In addition, for municipal pollution programs such as 
sewage treatment and runoff, Federal financial assistance has 
been a key complement to effective permits. But the Act is 
starting to show its age a bit. The law today does not clearly 
protect all kinds of waters, thanks to misguided 
interpretations in recent years, and it never established a 
truly effective system to address runoff pollution. Funding for 
needed infrastructure maintenance and improvements is lagging 
and far from early Clean Water Act funding levels. At our 
current rate of investment, U.S. EPA has projected that sewage 
pollution in the U.S. will be as high in 2025 as it was four 
years before the passage of the Clean Water Act. And, 
unfortunately, EPA and the Corps have failed to enforce the law 
in many key respects.
    Five or ten years ago, I might have stopped here, but now 
NRDC is increasingly evaluating water resource trends, not just 
water pollution trends, and there we are finding a disturbing 
picture. There is an upward trend for beach closings, red 
tides, dead zones, droughts, floods, coral reef damage, 
nutrient pollution, sewage pollution. In addition, global 
warming will have numerous adverse effects on available 
freshwater resources.
    As NRDC reported recently, experts project that global 
warming will decrease snow pack in the west, reduce other water 
supplies, increase the magnitude and frequency of droughts and 
floods, and degrade aquatic habitat. For example, a recent USGS 
study found that, as a result of climate change, large storms 
that might have, in the past, come once every 100 years could 
now occur every 15 or 20 years. And this causes not just 
ecological damage, but will overwhelm waste water treatment 
systems.
    While improving existing programs that limit pollution 
discharges into waterways can help reverse the disturbing 
trends, the Clean Water Act also needs some new tools. The Act 
needs to integrate our management of all water resources. The 
distinction between water quality and water quantity is 
artificial, and ultimately it is unworkable for many kinds of 
challenges such as runoff, aquatic habitat, global warming, and 
increasing droughts. The Act must look further upstream into 
watersheds and prevent causes of degradation at their source.
    We need to protect forests, wetlands, headwaters, soil, and 
habitat that naturally cool the surface of the earth, capture 
and filter pollution from waterways, recharge groundwater 
supplies, provide aquatic habitat, and control flooding. We 
need a paradigm shift. Water that falls as rain must not be 
viewed as a waste to be gotten rid of as quickly and cheaply as 
possible, but, rather, as a resource to green our cities, to be 
put to beneficial use by industry, or to be recycled into the 
earth.
    The first step is to stop letting the natural resources 
that safeguard our waters be destroyed. We aren't even doing 
that yet.
    Mr. Chairman, your Clean Water Restoration Act is 
critically important in this regard. However, that bill will 
only restore Clean Water Act protections that the Supreme Court 
and this Administration have put in jeopardy. As was made clear 
in the amicus brief before the U.S. Supreme Court, which I 
authored while working at the New York Attorney General's 
Office, restoring Federal jurisdiction is helpful to the 
States. Indeed, that is why 35 States and the wetland managers 
of all 50 States signed on to that amicus brief. But still more 
needs to be done.
    The second step is to address development that continues to 
spread across the face of the U.S. at twice the rate of 
population growth, wiping out forests, meadows, wetlands, 
headwaters, flood planes, and soil. Unchecked sprawling 
development destroys our sense of community, the balance of 
natural systems, and our open spaces at the same time. To 
address this burgeoning problem, we need to move from talking 
about smart growth to implementing it and providing incentives 
for it. We need to incorporate green infrastructure into 
development so that it is essentially hydrologically invisible. 
The same quantity and quality of water will leave an area after 
development as before. We need to bring water quality 
protections into all transportation planning, one of the 
largest and most significant sources of water quality 
impairment, and we need to restore water quality resources that 
have been lost.
    The third step is to start thinking of our water resources 
in an integrated way and stop using approaches that merely 
shift pollution from surface water to groundwater or from water 
bodies to land. A more holistic approach will require major 
changes in responsibilities among agencies and institutions at 
the Federal, State, and local levels. This effort would require 
us to integrate programs that are now largely disparate. We 
urge Congress to begin to think how to move to a more cross-
cutting system, including how to provide funding and incentives 
for efforts to pioneer such approaches.
    In sum, the passage of the Clean Water Act was a tremendous 
achievement in protecting the health and welfare of the public, 
and it achieved great success in addressing some of the most 
egregious water pollution problems of the day, but it is aging 
and its wrinkles are beginning to show rather clearly. It is 
suffering a mid-life crisis. The world is much different than 
it was when the Act was last amended significantly 20 years 
ago. A lot of work still needs to be done to carry forth the 
mandate of the Act and to provide adequate funding for its 
programs.
    But even that will not be enough. We need to look again at 
the protection of our water resources from first principles, 
including the water cycle that we studied in grade school and 
the nutrient cycle that is critical on the one hand to food 
production and the other to maintaining water quality. 
Together, we must begin to construct a system that will ensure 
that our children and grandchildren can enjoy the many benefits 
of safe and clean water as we have. We should honor the legacy 
of the Clean Water Act by moving forward.
    Thank you.
    Mr. Oberstar. Thank you very much for your splendid 
testimony.
    To present our next witness, my colleague from Minnesota, 
Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman, and I truly thank 
you for holding this incredibly important hearing; it is 
humbling to be here with this important piece of legislation on 
this anniversary, and I think aptly named, Successes and Future 
Challenges.
    I thank all of our witnesses and all of those who are here. 
I apologize for, I guess, the House calendar here or the House 
schedule that has left so many of my colleagues not here, 
because this is important, this testimony is important. The 
future of this piece of legislation is critically important, 
and I thank the Chairman. We will hear much more about it.
    It is a real pleasure for me and an honor to introduce our 
next witness here, Kevin Paap. Kevin is a farmer out in the 
First District of Minnesota; he is a constituent of mine. He 
and his wife Julie own a fourth generation farm in Blue Earth 
County, Minnesota, some of the richest agricultural land in the 
world. They raise corn and soybeans, and have been active in 
many issues. Kevin is here today, and I worked with him in his 
capacity of Minnesota Farm Bureau President. He is going to 
testify on behalf of the American Farm Bureau. He has been a 
steady advocate for farm policy and rural policy across our 
district.
    During that farm bill process, I found one of the strongest 
things in working with Kevin was the ability to educate people 
in rural Minnesota, not just Farm Bureau members, but all 
members, about the importance and the interconnectedness of 
economics, farm policy, and the environment, and has been a 
strong advocate for that, bringing those together and 
encouraging people, especially young farmers and ranchers, to 
get actively involved in this process like we are doing today. 
Kevin stays pretty busy with all he does there. He is also an 
EMT and he is a Fellow at the Humphrey Institute on Public 
Policy at the University of Minnesota.
    So it is a real pleasure for me to introduce a constituent, 
an expert in farm policy out in rural America, and one of my 
constituents that I am very proud to have here today. Kevin?
    Mr. Oberstar. Before you begin, I must say that, in our 
business, when you get such an introduction, the best thing is 
to sit down.
    [Laughter.]
    Mr. Oberstar. And declare victory and go home.
    But I was thinking about your glowing statement about the 
rich farmland down there in Blue Earth County that all was 
washed down there from Northern Minnesota during the glacier. 
You know, when the glacier melted, it eroded the north land, 
and that left us with the rocks and you got all the good soil 
down there.
    [Laughter.]
    Mr. Paap. Yes, Mr. Chairman. Thank you for helping the 1st 
District out with your district.
    Mr. Chairman and Members of the Committee, as mentioned, my 
name is Kevin Paap. As my Congressman mentioned, my wife and I 
own and operate a fourth generation farm where we raise corn, 
soybeans, and boys, boys being the most important crop. I am 
President of the Minnesota Farm Bureau, but testifying today on 
behalf of the American Farm Bureau and farmers and ranchers 
nationwide. Again, I appreciate this opportunity to join in the 
celebration of the 35th anniversary of the Clean Water Act.
    The Clean Water Act is one of our Nation's most successful 
environmental statutes, but is not alone in protecting 
America's waters. Specifically, we believe that the soil 
conservation and water quality provisions of the last four farm 
bills have contributed significantly to the goals of the Clean 
Water Act and the Nation's overall water quality protection 
efforts. Our Nation's 35 year commitment to clean water has 
been successful. In the mid-1970s, 30 percent to 40 percent of 
the surface waters monitored met water quality goals. Today, 
two-thirds of our Nation's waters meet their goals. Our glass 
is two-thirds full.
    Wetlands have also benefitted. From the early 1990s to the 
1970s, we saw a decline in the number of wetlands; whereas, in 
the most recent study period, 1998 to 2004, wetlands are 
increasing at a rate of 32,000 acres every year.
    After more than three decades of focus on water quality, we 
have a better understanding of our most difficult water quality 
concerns. Command and control regulations are not the only 
solution, nor always the most cost-efficient. Local 
governments, individual citizens, community foundations, State 
and regional entities, environmental organizations, 
agricultural organizations, soil and water districts, these are 
the major players today, and they will continue to be the key 
players in the future.
    Farmers and ranchers have a vital stake in protecting our 
Nation's water and streams, for ourselves and for our future 
generations. We are proud of our record. We have a strong 
history of working to see that our waters are protected, while 
American agriculture remains a leader in feeding the world. We 
take second place to no one in our commitment to the land and 
the water where we raise our crops, care for our livestock, and 
raise our families.
    Let me remind the Committee that, collectively, farmers and 
ranchers own and manage two-thirds of the Nation's land. We are 
good stewards of the Nation's soil, air, and water resources, 
but the cost of this stewardship is not cheap. Moreover, it 
falls primarily on us as individuals, because unlike other 
businessmen, farmers are unable to pass along our additional 
costs to the consumer.
    Over the last three decades, farmers and ranchers have made 
great strides in improving our environment. By nearly every 
measure, our environment and natural resources are in better 
condition now than any other time in more than a century.
    We encourage the Members of the Committee to recognize the 
important roles that incentive-based programs--such as the 
Conservation Security Program, the Environmental Quality 
Incentives Program, the Conservation Reserve Program, the 
Wetlands Reserve Program--play in achieving the goals of the 
Clean Water Act. Conservation, cost share measures and 
incentives are essential in providing the producers to make 
environmental improvements.
    Throughout the 35 year old history of the Clean Water Act, 
the regulatory reach of this Act has been a controversial 
aspect of the law. This debate is continuing with the proposed 
Clean Water Restoration Act of 2007, which many believe would 
expand the law well beyond its original scope. There is strong 
support within the ag community for the goals of the Clean 
Water Act, including the framework Congress established that 
respects existing Federal-State relationships.
    I appreciate the opportunity to offer these perspectives on 
the Clean Water Act and will be pleased to respond to any 
questions. Thank you.
    Mr. Oberstar. Thank you very much, Kevin, for your splendid 
testimony and for your thoughtful remarks, and for the many 
hours, I would say, that we have spent together on this 
subject, and for also your contribution that you personally and 
that of the Farm Bureau to the shaping of the farm bill that 
passed the House and now awaits Senate action. It is an 
excellent bill.
    Mr. Singleton, thank you for being here.
    Mr. Singleton. Thank you, Mr. Chairman and Members of the 
Committee on Transportation and Infrastructure. I am Mark 
Singleton. I live in Sylva, North Carolina, and I am Executive 
Director of American Whitewater. Founded in 1954, American 
Whitewater is the national membership organization that 
represents whitewater enthusiasts and river conservationists 
around the Country. Our organization is the primary advocate 
for the preservation and protection of whitewater rivers 
throughout the United States. Our mission is to conserve and 
restore America's whitewater resources and enhance 
opportunities to enjoy them safely.
    Today, I am testifying as Chairman of the Outdoor Alliance, 
a coalition of six national member-based organizations devoted 
to conservation and stewardship of our Nation's lands and 
waters. The Outdoor Alliance includes the Access Fund, American 
Canoe Association, American Hiking Society, American 
Whitewater, and the International Mountain Bike Association, as 
well as the Winter Wildlands Alliance. Collectively, the 
Outdoor Alliance has membership in all 50 States and a network 
of almost 1400 local clubs and advocacy groups across the 
Nation.
    I grew up paddling, and some of my earliest memories are 
family canoe trips on Northwood Lakes. As a paddler, I have had 
the opportunity to explore headwater streams and rivers around 
the Country and the world, and through these experiences I can 
speak firsthand about the benefits of clean water to 
recreational users and whose communities are dependent on 
experience-based economies where water quality shapes the 
destination for quality outdoor human powered recreation.
    These days, my wife and I are passing along our love of 
rivers and the outdoors to our two daughters. Our kids enjoy 
their time on the water and anything that floats: inner tubes 
on Deep Creek Lake in the Great Smokey Mountain National Park 
to rafts and kayaks on the Nantahala and Tuckaseegee Rivers.
    Most think of the Clean Water Act as a law that keeps our 
waters from becoming polluted. While this is certainly true, 
fortunately, the framers, including yourself, of this 
legislation not only realized that clean water in America's 
streams, rivers, lakes, and wetlands keeps natural ecosystems 
in check, but clean waters also nourish our bodies and our 
souls. Without the provisions of the Clean Water Act that 
protect water quality and water quantity, it is doubtful that 
my two girls would have the same river experiences that I have 
had.
    When the Clean Water Act was enacted 35 years ago, many 
rivers were so polluted that they were generally undesirable 
for outdoor recreation. The Cheat River in West Virginia was 
effectively dead. As a river guide on the Cheat in the late 
1970s, I remember days when the river would run orange from the 
runoff of mining operations on its headwaters. Paddlers have 
witnessed a tremendous recovery of wildlife in the river canyon 
with bears, deer, and even river otters now calling the river 
home.
    And let me come off my page here for a second and say that 
many of our American Whitewater members now paddle the Cuyahoga 
River in Ohio as well.
    Clean water is both a function of water quality and water 
quantity, and let me explain what this means from a paddler's 
perspective and relay a story that happened near my home in 
western North Carolina. The Cheoah River was dammed and 
diverted through a massive pipeline in 1928 for hydroelectric 
production. Generations came and went. Our resource extraction 
and manufacturing economy came and went, and by the dawn of a 
new millennium in Graham County, through which the Cheoah 
flows, it was the third poorest county in North Carolina.
    About 10 years ago, the 50 year old Federal license on the 
Cheoah dam neared its expiration and was finally due for re-
licensing. This time, in a world that had the Clean Water Act, 
as one of the re-licensing stakeholders, American Whitewater 
helped secure test releases of water into a barren riverbed, so 
that paddlers could explore and assess the quality of the 
river.
    What we found surprised everyone involved. The Cheoah was 
not merely a good recreational resource, it was a fantastic and 
utterly unique resource, and I would have to say, probably the 
best in our region. With support of the Clean Water Act, we 
helped negotiate a new license for the dam that included 
variable year-round flows based on the natural hydrography. In 
September of 2005, the gates to the dam were opened and they 
will stay that way for the next 40 years.
    The new flows have fostered an honest to goodness 
whitewater boating economy in Graham County, with each 
recreational release day contributing $15,000 to the local 
economy, which adds up, considering there are 18 new releases 
per year. The Clean Water Act allowed the State of North 
Carolina to give the Cheoah River back to Graham County.
    While the Clean Water Act has been a tremendous success 
both in addressing water pollution and restoring flows, 
significant challenges still remain. In a recent survey of our 
membership, approximately 70 percent of respondents reported 
health effects from paddling on polluted rivers. Sinus and ear 
infections are the ongoing health issues that affect most 
paddlers.
    In closing, I would like to make two points. First, while 
the Clean Water Act has been a great tool for restoring rivers 
and addressing pollution issues, we still need assistance from 
Congress to make sure the key provisions of the Act are not 
weakened. Of particular concern is the 2006 Supreme Court 
decision that left the fate of our Nation's headwater streams 
in legal limbo. Specifically, the Court narrowed protections of 
the Clean Water Act to navigable waterways, leaving headwater 
areas unprotected. Regardless of their navigability, headwater 
reaches are important for all forms of outdoor recreation. The 
Clean Water Restoration Act of 2007, H.R. 2421, would restore 
those full Federal protections for our rivers and streams.
    Second, the Clean Water Act is landmark legislation that 
anchors our Country's natural resources and has created this 
ongoing legacy of stewardship for rivers and streams. From our 
perspective as outdoor enthusiasts, the Clean Water Act 
represents a triple bottom line. It has been good for the 
rivers and their ecosystems, it has been good for recreational 
users who spend their wet dollars in local communities. And it 
has been good for communities who are dependent on experience-
based economies, where clean rivers are the destination.
    Mr. Chairman, Members of the Committee, thank you very much 
for allowing me to make those remarks.
    Mr. Oberstar. Thank you for that very inspiring, 
heartwarming account of the rebirth of the Cheoah River.
    Mr. King?
    Mr. King. Chairman Oberstar, Ranking Member Mica and 
honorable Members of the Committee, my name is James King, and 
I am president of the DeKalb Pipeline Company, based in 
Conyers, Georgia. I am a water and sewer contractor doing 
residential site development work around Metro Atlanta.
    I am grateful for the opportunity to participate and 
testify in this hearing as President of the National Utility 
Contractors Association, also known as NUCA. NUCA is a family 
of more than 1,700 companies made up of contractor members, 
suppliers, manufacturers, people that maintain, build, repair 
the Nation's underground water infrastructure, as well as gas, 
electric and telecommunications systems.
    It is a privilege to participate in the celebration of the 
35th anniversary of the 1972 Clean Water Act and to discuss the 
progress that has been made since its passage, as well as the 
continuing challenges facing America's underground 
environmental infrastructure. We have come a long way from the 
horrific images of burning rivers and waterways of the 1970s, 
but the gains are threatened by the lack of attention to our 
environmental infrastructure in recent years.
    I want to reiterate NUCA's support for your ongoing efforts 
to keep the goals of the CWA on the priority list of the U.S. 
Congress. NUCA serves as chair of the Clean Water Council, CWC, 
a coalition of 30 national trade organizations representing 
underground construction contractors, design professionals, 
manufacturers, suppliers, labor representatives and others 
committed to ensuring a higher quality of life through sound 
environmental infrastructure. For your reference, a list of the 
CWC members is attached to my written testimony.
    I am here today to give you the perspective of a utility 
contractor, those who work in the water and wastewater systems 
every day and see what it looks like when they fail. Mr. 
Chairman, I know you agree that the decrepit condition of this 
infrastructure is quickly becoming an environmental crisis. 
Take this testimony from someone who sees it up close and 
personal every day, the view from the trenches isn't pretty.
    For their everyday work, utility contractors build and 
repair America's un-glamorous but critical water and wastewater 
infrastructure. What is out of sight and out of mind to most 
people is clearly visible to NUCA and its members who are 
working in the ditches every day.
    For example, just recently my company was called on to do 
an emergency repair of a sewer system that failed in a shopping 
center parking lot. This failure came to light because the 
apartment complex that was downstream starting notice an 
increased flow through the stream that runs through their 
apartment complex. As they started looking, trying to figure 
out where that flow was coming from, there was also a strong, 
pungent odor. The odor was raw sewage that was running from the 
broken sewer line upstream.
    We started work on this repair early on a Friday afternoon 
and worked all through the weekend trying to solve the problem. 
The sewer line was 35 feet deep, and once we had excavated to 
16 feet deep, the ground started acting like a sponge. It 
started losing raw sewage back out from the time that the line 
had been broken and just saturated the ground. By the time we 
got down to the bottom of the pipe where the break was, we were 
standing in four feet of raw sewage. And then as we started 
trying to fix the problem, the pipe really started crumbling 
like a cookie as we chased it back up into the parking lot. I 
have no doubt that that line will need repair again, as we only 
fixed a small part of it.
    I realize that the Committee is well aware of the needs 
facing our wastewater infrastructure, recognizing that Federal 
funding to address this problem has been recently cut from 
already low levels. You can't come away with a sense that our 
clean water needs are being appropriately addressed.
    I do want to focus a little bit on the economic benefits 
that come from funding projects under the Clean Water Act. 
Investing in this infrastructure increases public health and 
safety and helps protect the environment. But it also serves to 
maintain a strong economic foundation in a variety of ways.
    First, there is job creation. According to several sources, 
including the American Public Works Association, more than 
40,000 jobs are created with every $1 billion that is invested 
in projects to improve this infrastructure. Several positive 
impacts on local economies result from this funding, including 
direct impacts, jobs created in order to conduct the 
construction project. You need to remember, it is very 
important to remember that these are quality, high-paying jobs 
that can't be outsourced overseas. They are provided right here 
in America for American workers.
    There are also indirect impacts from the purchase of 
materials and supplies. Manufacturers, distributors and 
suppliers all benefit from economic impacts. Economic benefits 
don't stop with the construction industry. Induced impacts are 
supported by spending and re-spending of the workers that are 
working on these projects. Induced impacts are often referred 
to as the multiplier, or the ripple effect. Increased economic 
activity resulting from funding these projects ripples through 
local economies and benefits several sectors outside of 
construction.
    I had the opportunity earlier this week to see this first-
hand in Portland, Oregon, where the Kiewit Corporation is doing 
a major CSO tunnel. It is right along the east side, it is 
called the East Side Big Pipe CSO. Kiewit has relocated almost 
200 workers to the Portland area that are now ratepayers on the 
system that they are working to repair.
    Inevitably, these economic enhancements collectively help 
expand the local tax base, making communities all the more 
attractive. In March, this Committee passed legislation that 
would authorize $14 billion for Clean Water SRF over the next 
four years. I want to reiterate the support of NUCA and the 
Clean Water Council of your bill, which would provide immediate 
resources over the next few years while seeking long-term 
solutions.
    The CWC is pushing hard for introduction and action on the 
Senate SRF bill. NUCA and the Clean Water Council applaud the 
progress the Committee has made in the 110th Congress to 
advance several pieces of legislation and support that goes 
with the Clean Water Act. Although the purpose of that extends 
far beyond financing projects to repair water and wastewater 
infrastructure, it is a significant function of the Act and one 
that has been in large part neglected by the Federal Government 
in recent years.
    The Minneapolis Bridge collapse provided new attention to 
America's failing critical infrastructure. Our infrastructure 
is as interlocking as it is interdependent. Thank you for 
making sure that what is out of sight will not necessarily out 
of mind on Capitol hill.
    Thank you for the opportunity to submit testimony for the 
record, and I am happy to answer any questions you might have 
about how these systems are built or about the economic 
advantages that come with Clean Water funding.
    Mr. Oberstar. Thank you very much, Mr. King. I greatly 
appreciate the contribution of the Underground Utility 
Contractors Association, NUCA. As we moved the legislation 
through Committee and through the House to reauthorize the 
State Revolving Loan Fund Program, increase its funding up to 
$14 billion, we said to the earlier panel, we started out with 
$20 billion, but we had to scale that back because of concerns 
about the pay-go issue and offsetting funds against that 
amount. But if the Senate would just move a little faster, that 
bill could be on the President's desk and we have no indication 
of objection, of a veto threat by the Administration, although 
there were some grumblings about it. But because we have fully 
offset it, I think this Administration would sign it.
    I want to thank you very much, and I also want to express 
at this juncture my continued sense of loss over Scott Hanson, 
the NUCA Director for Minnesota, Executive Director for 
Minnesota. He did extraordinary service for your association.
    It is also ironic that on this day that we celebrate the 
enactment of the Clean Water Act, in the course of a veto 
override, that we had another vote today on a veto of the 
President. We did not succeed in overriding the vote on the 
Children's Health Insurance Program, although there was a good 
deal of bipartisan support to do so, we didn't reach the 
threshold required, a two-thirds vote. It just shows how 
difficult it is to overcome a Presidential veto.
    But on this issue, children's health, such a very big, 
important question for all America, clean water is more 
important than any other issue on our agenda in the early 
1970s. And it brought together not just a consensus, but an 
overwhelming support for this question of available water for 
all Americans.
    A common theme throughout the testimony of this panel has 
been watershed, the watershed approach to managing the future. 
Ms. MacBride, to what extent have members of the Garden Club 
looked at this issue from this broader scope, not just stream 
by stream, river by river, lake by lake, but where the water 
originates? What are your thoughts about this?
    Ms. MacBride. Well, I appreciate the question, and although 
I am not an expert, we do have many vice-chairs that do copious 
amounts of research in this area. Just to put it briefly for 
you, I think that everything is connected in this regard, 
starting at the watershed, which ends up having a huge effect 
at the end on our drinking water and filtering pollutants.
    I think from what we are talking about today, too, one of 
the big problems seems to be, which I briefly mentioned in the 
testimony, is the visibility of some of the streams and 
tributaries that have come down and that have seasonal water. 
What I can just say to that is that we feel also very strongly 
that from the watershed on down, even when you find those dry 
areas, and I have this on pretty good authority that there is 
oftentimes, most often in fact, subsurface water and not 
necessarily significant subsurface, just below the surface. And 
these all extend and flow in the same direction and attach to 
the major waterways. And you can see that when you see 
vegetation there, when it appears to be dry. You can even see 
it when there is nesting that goes on in seemingly dry areas.
    So I think that it is very important from the watersheds 
throughout the whole system to think of it as one connected, 
very integral system.
    Mr. Oberstar. Thank you.
    Mr. Westhoff, you touched on a theme that is gaining a 
great deal of interest and support, and that is establishing a 
clean water trust fund. Now, we have the Aviation Trust Fund, 
which was established in 1970, the Highway Trust Fund, which 
was established in 1956. The Inland Waterways and Harbor 
Maintenance Trust Fund was established in 1978.
    They all have a revenue source, they have one thing in 
common, there is a source, there is a fuel tax on the 
waterways, there is a fuel tax or user fee for the Highway 
Trust Fund, there is a passenger fee for Aviation Trust Fund. 
Where do we get the revenues, what thinking have you done among 
your members of the clean water agencies, a common source for a 
dedicated revenue stream to fund this vital need of ours?
    Mr. Westhoff. Well, Mr. Chairman, I think you have 
certainly hit on probably the most difficult hurdle to getting 
to a water infrastructure trust fund. Because you certainly 
cited to a number of examples where trust funds have been 
utilized to help maintain the Nation's vital infrastructure.
    I know that NACWA has looked at a number of potential 
sources, and I know that we are certainly open to exploring 
them with this Committee, and certainly on the Senate side. I 
don't think we have reached a conclusion as to what is the most 
viable source of revenue to support it. I think what we 
certainly have done is, we have reached the conclusion that 
there is a need for it. The problem with our infrastructure for 
the most part is that it is out of sight, and therefore in many 
people's minds, out of mind.
    In addition, we are dealing with a subject matter that 
isn't really the most popular conversation at cocktail parties 
or dinner parties. We are dealing with the waste stream of 
America. And yet every day, people literally want to flush it 
and forget it, and yet my agency and all of our neighbor 
agencies can't do that, because 365 days a year, 24 hours a 
day, we have to be there to receive that waste, and we have to 
convey it, we have to treat it.
    So I think the need is obviously there for Federal support, 
for what we do with this infrastructure. But I don't think we 
are at the point where we are able to look you in the eye and 
tell you that we have an identified source of the revenue 
necessary to maintain that trust fund. I will promise you this, 
we will sit down with the Members of the House and the Members 
of the Senate and work with them to try and find one that is 
even-handed, one that does not burden one set of individuals 
over another but hopefully will provide us with a source of 
revenue to close that funding gap that has been articulated in 
so many past references and talked about in our latest 
rendition.
    Mr. Oberstar. NACWA's ``Recommendations for a Viable and 
Vital 21st Century Clean Water Policy'' is a splendid document, 
and well written. I have had the opportunity to skim through 
it, and I will digest is more fully later.
    You mentioned something, Mr. King, as well, your work is 
very underground. My predecessor, John Blatnik, once observed 
that we probably ought to require all water and sewer lines to 
be built three feet above ground so people will bump into them 
and see that they are there and see what you have done for 
them. You build a highway, people see it and drive over it. You 
build an airport, they fly on it. You improve the locks on the 
waterways, they know it is there.
    But the water and the sewer lines are out of sight, and 
they are also deteriorating out of sight.
    Mr. Westhoff. That is very true. I give tours, we give lots 
of tours of our treatment facilities. But even there, people 
want them screened off from public view. But we are trying to 
educate the youth in our community about the need for this 
infrastructure. When we were constructing some of our big 
interceptor sewers, I actually went down inside the sewer, 
because from my perspective as legal counsel for the Department 
of Public Works, the more I know about our infrastructure, the 
easier it is for me to be their lawyer and to understand when 
my engineers talk about their needs, to be able to express that 
to the general public and other arenas where I get to talk.
    So it is an important infrastructure and it is certainly 
something that is on my mind. We would like to see it be on the 
minds of the general public.
    Mr. Oberstar. Now, I asked the question earlier, I want you 
and Mr. King to comment on this of Mr. Grumbles, about the 
proposal the Administration has for water enterprise bonds. And 
our experience in this Committee four years ago moving to lift 
the cap on private activity bonds so that municipalities could 
borrow the money they need without limitations, and go to the 
market. I heard Mr. Grumbles now say that oh, the 
Administration has really made a turnabout on this issue, the 
Treasury Department has come around to in fact observe that 
while there may be a short-term loss of $200 million, long-term 
there is a $2 billion to $5 billion annual gain in revenue from 
these, from lifting the cap and using private activity bonds, 
including their new proposal for water enterprise bonds.
    What are your thoughts about that method of financing the 
construction needs in our sewage treatment program?
    Mr. Westhoff. Let me preface my statement by telling you, I 
cut my teeth when I first got to public works on the Clean 
Water Grants Program. So when I started as a public works 
lawyer over 25 years ago, the Clean Water Grant Program was 
sort of the foundation upon which we were doing it. And 
certainly, the City of Los Angeles took advantage of the Clean 
Water Grant Program. I was disappointed when the President took 
the funding out of that program and we transitioned it to a 
loan program.
    Mr. Oberstar. I can tell you, I am going to interrupt you 
just momentarily, I can tell you that moment in 1981 in June on 
the Reconciliation Act, on the Reagan budget, we met in 
conference in the Capitol, the exact center between the House 
and the Senate. Senate conferees were on one side, there was a 
Republican majority and the House conferees on the other side. 
While we had a unified position in the House, I asked Senator 
Stafford for the Senate position on scaling back to $2 billion 
from $6 billion.
    Then in the following year of eliminating the grants and 
substituting a loan program therefore. He just looked at me, 
and he said, the Senate position is five to four against the 
House position. And I looked over at Senator Jennings Randolph, 
one of the grand names and leaders of the Senate, and I said, 
but you didn't even ask Senator Randolph. He said, I can, but 
the vote will still be five to four against the House position.
    Mr. Westhoff. I can tell you, if I were to create a 
hierarchy in my mind, grants would be certainly at the top of 
that list, loans would come second, and the private activity 
bonds would be somewhere further down that list.
    I live in an urban area and work for a municipality that 
has the ability to go into the financing market and float 
bonds. Because we have a tremendous track record, we have a 
dedicated source of revenue. That is our ratepayer revenues 
that we collect from our ratepayers. So we actually have the 
benefit of low interest rates, because we have triple A rated 
bonding capacity. I am not sure that all of the communities 
across this Country have that same benefit. So maybe the 
private activity bonds may be a source, potentially, for them. 
But from my perspective, it is not the answer to the problem. 
It is not----
    Mr. Oberstar. It is certainly not for the small 
communities, by small I mean under 10,000, of which we have a 
plethora in Minnesota and elsewhere around the Country. If they 
can band together in a regional cooperative association of 
municipalities, they might be able to do it. But one by one 
they can't.
    Mr. Westhoff. I don't think private activity bonds are the 
answer to this problem. It seems to be the one that the agency 
is sort of latched onto. I think NACWA has been pretty clear, 
of our broad-based support for a trust fund and for working to 
achieve a revenue source to support that trust fund. But we do 
not believe that private activity bonds are the answer to the 
question.
    Mr. Oberstar. Thank you.
    Mr. King, your members are deeply engaged in this issue.
    Mr. King. I think the bottom line for us is, we are looking 
for funding wherever we can get it. However, I do agree, I 
think the private activity bonds are probably not the ultimate 
answer. I think they could be a source, that they could be a 
tool to be able to help some of these cities to be able to 
refurbish their infrastructure.
    We are very much in favor of getting the funding back and 
utilizing the SRF. The SRF is a good program, it is a program 
that continually the money revolves, it comes back to the 
Government and it just builds. To us that is probably the best 
tool that is out there.
    Mr. Oberstar. It is a dedicated stream and it is 
dependable. It is an available resource, financial resource out 
into the future that municipalities can count on.
    Mr. King. I agree. I think that is probably our number one. 
But I think that again, from the contractor's standpoint, and 
you made the comment that sewer lines and water lines are 
buried. I mentioned being in Portland earlier this week. One of 
the obstacles that they were encountering when they were laying 
right down a city street alongside a water line that was 
installed in 1911, what do you think that might have been made 
out of?
    And their concern was that one line was going to blow out. 
You saw the steam line in Manhattan back in the summer. What is 
down in the ground is not seen by the American public. I can 
tell you from a contractor's point of view, it is in bad shape. 
And these cities, they need some real help in how they are 
going to solve their problems. I don't know that there is a one 
size fits all. I don't think that there is a one answer that 
accommodates all of it.
    But I think that there has to be some hard looks at what 
the solutions are.
    Mr. Oberstar. Thank you.
    Mr. Lehner, I liked your comment about the Clean Water Act 
may be having a mid-life crisis. We need new tools. Is the 
watershed approach one of those new tools? And why is the 
watershed approach important?
    Mr. Lehner. It is one of the new tools, if it is done 
right. That is a very big if. This is really for three reasons. 
One is that you have to include all sources of water quality 
degradation, which is both water quality and water quantity. 
That of course relates to your bill, the Clean Water 
Restoration Act. You have to go all the way upstream to all the 
tributaries, to all the sources, all the sources of protection 
of that water, including obviously the wetlands that are in the 
watershed, and not draw artificial distinctions based on size 
or whether there is a permanent flow. In many areas, there is 
quite a connection, but it may only be half the year or a third 
of the year. But it is still very much of a water quality and 
water quantity connection. So the watershed approach in one 
part means you have to go all the way up and take every source 
in the whole area.
    The second is that it means getting all the sources. Right 
now, a big challenge has been, frankly, that point sources have 
been pretty well covered, and non-point sources, runoff, have 
been pretty poorly covered. There are exceptions, obviously, 
but that is the general rule. I think what you are hearing from 
many, particularly the point sources, is we need a stronger 
program for the non-point sources.
    So if the watershed approach means making a more level 
playing field and bringing all the sources in, not by weakening 
protections and weakening safeguards applied to point sources, 
but by strengthening the ones that apply to non-point sources, 
which is frankly what many would often argue for, then the 
watershed approach can be very important.
    Then I note that of course the Clean Water Act in its 
wisdom does actually have a watershed approach. The Total 
Maximum Daily Load program is in fact a watershed approach. And 
it has been largely existing on paper and only very slightly 
implemented around the States. We clearly need additional 
funding and additional seriousness for the TMDL program.
    But again, what is critical there, even that program 
embodies this dichotomy between point sources and non-point 
sources. We have to break that down so it is not, let's have a 
total, find out what the watershed can take and then force all 
the point sources to bear the burden or pay the non-point 
sources.
    Lastly, I think it is a critical difference to recognize 
reality. Theory is what existed before 1972, which the theory 
beforehand was, let's see where there is a problem, analyze 
backwards, see what the sources of the problem are and correct 
them. That theory didn't work. What the clear, real wisdom, the 
brilliance of the Clean Water Act was having the shift and 
saying, no, you can't pollute unless you prove that it is okay. 
And that shift was critical.
    Similarly, one likes to say that well, let's have a very 
detailed program where to deal with the watershed you can have 
all sorts of trading and all sorts of detailed analysis. The 
State agencies are overwhelmed, the local agencies are 
overwhelmed. They can't do that unless there are some 
administrative measures to make the process go faster, have 
some presumptions that are based in science and based in 
reality and let the permitting process move forward quickly.
    Mr. Oberstar. Thank you very much. You summed up what we 
spent 10 months debating in the conference in 1972, 1971 and 
1972 on the Clean Water Act, and arrived at those conclusions.
    Mr. Paap, Kevin, you seemed to suggest in your testimony as 
agriculture works to increase its productivity and requires 
more inputs of fertilizer and limestone, perhaps, and other 
activities depending on the soil, that there is runoff and 
water quality goes down. Is there necessarily an internal 
conflict here? Is this a zero sum game that improvement in 
agriculture productivity necessarily leads to a decline in 
water quality, or that protection of water quality must result 
in a decline in agricultural productivity?
    Mr. Paap. Mr. Chairman, as you talked about productivity, I 
think back to about a week ago, we are right in the middle of 
harvest now in Southern Minnesota, corn harvest. On our farm, I 
typically run the combine and my wife runs the tractor and 
grain cart. We dump on the go to harvest a little more 
efficiently, which means you both kind of go at the same speed. 
If you don't, you have the opportunity to feed the pheasants 
and the deer a little bit by missing the wagon.
    About a week ago, she got out of the tractor and she walked 
over to the combine and looked at me, and said, you know what 
we need here is more cooperation and a whole lot less 
confusion. I think maybe that is kind of where we are in 
agriculture. We are committed to work together in a 
cooperative, constructive way. I think as you know, Mr. 
Chairman, agriculture has changed. Agriculture looks different 
than it did when I got out of ag school in 1981, where we have 
seen a reduction in the plowing and the tillage methods. We now 
have no-till, reduced till, minimum till. With the high energy 
prices, the first thing we have learned on the farm is manure 
is an asset. It is a very valuable nutrient. And as we look at 
nutrient management plans on the farm and implementing best 
management practices and soil tests, probably the GPS or the 
computer, as we see the GPS in our automobiles, remember, it is 
exactly the same in our combines, where we can go ahead and do 
site-specific and we know where we are in the field, and only 
apply those nutrients in areas where we need them.
    And there is an expense to that. As I mentioned in my 
testimony, expenses are a lot in agriculture. I think 
agriculture has changed where we are looking at not only soil 
erosion but water quality, air quality, wildlife habitat. I 
think we do have a role. Agriculture, American Farm Bureau, we 
want to be part of the solution to this and not be perceived as 
part of the problem. We want to be committed to make sure that 
we sit down and have that open dialogue and find out, what is 
the science, what can we do, what can't we do. We need to have 
that scientific discussion.
    Mr. Oberstar. In short, you would say there really is not 
an internal contradiction here, the two can be mutually 
beneficial, with application of modern scientific methods of 
mapping out the soils and the soil consistencies and giving a 
guy like Burt Peterson of Peterson's mill up in North Branch, 
who knew every acre of soil in the county and surrounding 
counties, that you can adapt to the needs of the land and not 
result in adverse effect on water quality.
    Mr. Paap. The great thing about agriculture is it is 
renewable. And it is one big circle, whether we tend to our 
livestock, we have those nutrients from our livestock as we put 
those back on our soil, that helps to grow us the next crop. We 
have mother nature and great solar power from mother nature, 
and it is a renewable resource, whether it be animal 
agriculture or the biofuels, we can make that process work. We 
can make that work good for the environment.
    Mr. Oberstar. I mentioned earlier the common theme through 
the testimony here and in the first panel of watershed approach 
to maintaining, establishing and maintaining water quality. 
Agriculture depends on watersheds. Agriculture depends on 
having high quality of water. I met with the Kanabec County, 
Chisago, Isanti County, Pine County farm bureau representatives 
back in 1987, 1988. We were talking about non-point source 
legislation. And the Snake River runs through those areas. Each 
one of them said, well, if you are not maintaining your quality 
upstream, and your cattle are discharging it to the stream that 
I am using that water down below and it is not good for me or 
my livestock or my farm, they all came to the realization that 
we have to work together in this watershed to sustain high 
quality water that agriculture and our livestock need. Is that 
the current view?
    Mr. Paap. You are exactly correct, Mr. Chairman. Water does 
not recognize or honor jurisdictional lines, whether it is a 
county line, a State line. Water kind of goes where it wants 
to. And we all need to work together. What works best in 
Minnesota and I think work best for agriculture all over is the 
voluntary, incentive-based programs. But they need to be 
locally designed and implemented, because there are differences 
in different watersheds. We need the technical and financial 
resources.
    But it is, just like agriculture is a big cycle, so is the 
water. We can't do anything in agriculture without water. We 
also can't do anything in agriculture with too much water. So 
it is a fine balance that we need to work together on.
    Mr. Oberstar. And we need water in the forestland of 
Northern Minnesota, and we have had way too little of that this 
year, we are down 12 inches in the north land. It is just 
devastating. We are finally getting some moisture. You got all 
of it down there in Southeastern Minnesota, all in two days I 
think it was, or three days.
    One of the issues that recurs in the issue post-SWANCC and 
post-Rapanos is management treatment of prior converted 
cropland. How do you define prior converted cropland within the 
context of the exceptions in the Clean Water Act?
    Mr. Paap. As we look at wetlands, and I guess I would go 
back to my wife, again, more cooperation, less confusion. It is 
hard to understand determinations of wetlands and to do that. 
It is a scientific basis. Those of us in agriculture, because 
there is a fine line, because we need moisture, but we also 
need to have adequate conservation drainage, adequate in our 
farms. Those prior converted farmlands are very important. That 
is how I make my living, that is how we pay the bills on our 
farm, how we pay the college tuition.
    We want to make sure we have that balance and that if it is 
a prior converted, it has been determined prior converted, that 
that land, which is, I am fourth generation, my sons are fifth 
generation, we want to continue to farm that in the future. We 
want to make sure we have the rights to do it environmentally 
friendly, to do it the right way. But we want to be able to use 
our prior converted farmland to feed not only the U.S. but feed 
the world.
    Mr. Oberstar. As long as it is in your hands and those of 
other farmers, it is going to be managed, it is going to be 
conserved and passed on to the next generation. But what 
happens when, as is so prevalent in Chisago County, Isanti 
County and others, where exurbia is pressing out into 
agricultural Minnesota, and farmers are selling their land and 
it is no longer going to be used for agriculture? At what point 
does that protection then disappear?
    Mr. Paap. I think we have to protect our resources, no 
matter what we use them for, whether it is to raise corn and 
soybeans, whether it is a pasture, whether it is a parking lot 
or a subdivision. We need to make sure we protect our 
resources.
    That is a good thing about agriculture, as productivity is 
increasing, technology, we are raising more crops on less 
acres. The reason we are doing that is because we have to, 
because we are losing those acres to urban development, to that 
sprawl. We have to have smart growth, but we also have to have 
smart agriculture to use that technology, whether it be 
biotechnologies or the new sciences to make sure we can feed 
the U.S. and the world.
    Mr. Oberstar. Thank you very much. California is a very 
good example of that. My son lives in Sacramento, and I go out 
cycling with him in the countryside, and garden parkway. Every 
time I am out there, there is a new housing development and 
fewer agricultural acres. You are losing watershed and losing 
the great open space. But that is what is happening with 
development. But along with it comes the loss of water 
retention in the land, having more runoff.
    Mr. Westhoff. Absolutely, Mr. Chairman. That is the 
difficulty you have. People wouldn't be building houses if 
there weren't other people to buy those houses. So the demand 
for housing obviously drives the construction.
    But it has to be done in a smart way. In Los Angeles, we 
have our stormwater permit which requires us to develop SUSMPs, 
which are standard urban stormwater mitigation programs, to 
require that new construction do more to maintain permeability 
on the soil, do more to keep at least the first flush of a 
storm on a development. That is absolutely sort of the bible 
for how we have to approve new development that goes on in the 
Los Angeles area. That can act as a model that needs to be 
taken care of in California. California seems to be on the 
cutting edge of a lot of these issues, but we are dealing with 
stormwater and attempting to do it in a holistic way.
    What isn't happening is that stormwater, wastewater and 
water quantity, water supply aren't getting together. Both 
silos still exist at EPA and those silos still exist in the 
real world. But in Los Angeles and in California as a whole, we 
are dealing with stormwater in a better way. It doesn't mean 
that it is addressing the issue of lost farmland. But we are 
trying to at least do some smart development, permeable 
pavement, green streets, things that are starting to be part of 
the green infrastructure movement in this Country and across, 
in California and across the Country. Oregon, Chicago, there 
are a lot of them popping up all over the United States, where 
they are implementing soft solutions for those problems.
    Mr. Oberstar. I think those are very significant 
developments, especially in shopping centers, permeable 
pavement adaptations. A friend of mine was a long-time 
specialist with the U.S. Geological Survey, assigned to 
California, and given a challenge to measure rainfall that they 
had noticed in creeks and ditches, very high levels of water. 
But they were puzzled about it, because the rainfall 
measurements did not seem to be increasing.
    So he, with his team, went out and measured creeks and 
ditches and small rivers in various places around the State and 
came back with, I will shortcut it all, with a report that he 
also looked at housing development and shopping center 
developments and other broad-scale paving over of the land and 
found that all that water was running off. Rainfall hadn't 
increased, runoff had increased. Less water was soaking into 
the ground. There was less groundwater recharge. That is a 
serious problem which you can attack with permeable pavement 
and retention facilities and others.
    Ms. MacBride?
    Ms. MacBride. Thank you. I just wanted to make one brief 
comment, I have to say, is that my father-in-law was very 
instrumental in getting the bike trail in Sacramento along the 
American River many years ago.
    Mr. Oberstar. I have bicycled on it. Very good.
    Ms. MacBride. He was a judge appointed by Kennedy. He loved 
biking as well.
    But what I was really going to tell you is, the Garden Club 
of America's Conservation and NEL committees took a trip just a 
couple of weeks ago to Montana. And we learned many, many 
interesting things, but one of the things I just wanted to 
mention in regard to agriculture is that there was really many, 
many people testifying to us about the benefits of conservation 
easements and how they had gotten State and local groups and 
private landowners together to keep the land in the family as 
was being spoken about earlier, so that you can farm it and it 
won't end up being a strip mall, and yet still preserve it and 
there are tax benefits and all that kind of thing.
    So I just wanted to throw that in, in reference to the 
strip malls.
    Mr. Oberstar. Thank you very, very much. Thanks to all of 
you, Mr. Singleton, especially for your citing the economic 
benefits of reopening a dam and restarting whitewater 
activities. We hear so much about the costs. But you cited the 
benefits, financial, economic benefits of clean water, and we 
are very grateful to you, and grateful to all of the witnesses.
    Mr. Singleton. Thank you very much. It has been a pleasure 
to be here. I might add that American Whitewater has been 
involved in projects like that across the Country, whether it 
be the Feather River in California, the Tallulah River in 
Georgia. So there are a number of those success stories out 
there.
    Mr. Oberstar. Well, on a concluding note, let us hope that 
the next 35 years show continued progress and protection of 
this precious resource, that we pass it along to other 
generations. A friend of mine was camping in Alaska some years 
ago and had a campsite where they were settling down for the 
night and building a campfire. There was a sign on the 
woodpile, it said, ``Take all you need. But when you leave, 
make the pile a little higher than you found it.`` That is our 
charge with clean water.
    Thank you all. The Committee is adjourned.
    [Whereupon, at 3:55 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8565.008
    
    [GRAPHIC] [TIFF OMITTED] T8565.009
    
    [GRAPHIC] [TIFF OMITTED] T8565.010
    
    [GRAPHIC] [TIFF OMITTED] T8565.011
    
    [GRAPHIC] [TIFF OMITTED] T8565.012
    
    [GRAPHIC] [TIFF OMITTED] T8565.013
    
    [GRAPHIC] [TIFF OMITTED] T8565.014
    
    [GRAPHIC] [TIFF OMITTED] T8565.015
    
    [GRAPHIC] [TIFF OMITTED] T8565.016
    
    [GRAPHIC] [TIFF OMITTED] T8565.017
    
    [GRAPHIC] [TIFF OMITTED] T8565.018
    
    [GRAPHIC] [TIFF OMITTED] T8565.019
    
    [GRAPHIC] [TIFF OMITTED] T8565.020
    
    [GRAPHIC] [TIFF OMITTED] T8565.021
    
    [GRAPHIC] [TIFF OMITTED] T8565.022
    
    [GRAPHIC] [TIFF OMITTED] T8565.235
    
    [GRAPHIC] [TIFF OMITTED] T8565.236
    
    [GRAPHIC] [TIFF OMITTED] T8565.237
    
    [GRAPHIC] [TIFF OMITTED] T8565.023
    
    [GRAPHIC] [TIFF OMITTED] T8565.024
    
    [GRAPHIC] [TIFF OMITTED] T8565.025
    
    [GRAPHIC] [TIFF OMITTED] T8565.026
    
    [GRAPHIC] [TIFF OMITTED] T8565.027
    
    [GRAPHIC] [TIFF OMITTED] T8565.028
    
    [GRAPHIC] [TIFF OMITTED] T8565.029
    
    [GRAPHIC] [TIFF OMITTED] T8565.030
    
    [GRAPHIC] [TIFF OMITTED] T8565.031
    
    [GRAPHIC] [TIFF OMITTED] T8565.032
    
    [GRAPHIC] [TIFF OMITTED] T8565.033
    
    [GRAPHIC] [TIFF OMITTED] T8565.034
    
    [GRAPHIC] [TIFF OMITTED] T8565.035
    
    [GRAPHIC] [TIFF OMITTED] T8565.036
    
    [GRAPHIC] [TIFF OMITTED] T8565.037
    
    [GRAPHIC] [TIFF OMITTED] T8565.038
    
    [GRAPHIC] [TIFF OMITTED] T8565.039
    
    [GRAPHIC] [TIFF OMITTED] T8565.040
    
    [GRAPHIC] [TIFF OMITTED] T8565.041
    
    [GRAPHIC] [TIFF OMITTED] T8565.042
    
    [GRAPHIC] [TIFF OMITTED] T8565.043
    
    [GRAPHIC] [TIFF OMITTED] T8565.044
    
    [GRAPHIC] [TIFF OMITTED] T8565.045
    
    [GRAPHIC] [TIFF OMITTED] T8565.046
    
    [GRAPHIC] [TIFF OMITTED] T8565.047
    
    [GRAPHIC] [TIFF OMITTED] T8565.048
    
    [GRAPHIC] [TIFF OMITTED] T8565.049
    
    [GRAPHIC] [TIFF OMITTED] T8565.050
    
    [GRAPHIC] [TIFF OMITTED] T8565.051
    
    [GRAPHIC] [TIFF OMITTED] T8565.052
    
    [GRAPHIC] [TIFF OMITTED] T8565.053
    
    [GRAPHIC] [TIFF OMITTED] T8565.054
    
    [GRAPHIC] [TIFF OMITTED] T8565.055
    
    [GRAPHIC] [TIFF OMITTED] T8565.056
    
    [GRAPHIC] [TIFF OMITTED] T8565.057
    
    [GRAPHIC] [TIFF OMITTED] T8565.058
    
    [GRAPHIC] [TIFF OMITTED] T8565.059
    
    [GRAPHIC] [TIFF OMITTED] T8565.060
    
    [GRAPHIC] [TIFF OMITTED] T8565.061
    
    [GRAPHIC] [TIFF OMITTED] T8565.062
    
    [GRAPHIC] [TIFF OMITTED] T8565.063
    
    [GRAPHIC] [TIFF OMITTED] T8565.064
    
    [GRAPHIC] [TIFF OMITTED] T8565.065
    
    [GRAPHIC] [TIFF OMITTED] T8565.066
    
    [GRAPHIC] [TIFF OMITTED] T8565.067
    
    [GRAPHIC] [TIFF OMITTED] T8565.068
    
    [GRAPHIC] [TIFF OMITTED] T8565.069
    
    [GRAPHIC] [TIFF OMITTED] T8565.070
    
    [GRAPHIC] [TIFF OMITTED] T8565.071
    
    [GRAPHIC] [TIFF OMITTED] T8565.072
    
    [GRAPHIC] [TIFF OMITTED] T8565.073
    
    [GRAPHIC] [TIFF OMITTED] T8565.074
    
    [GRAPHIC] [TIFF OMITTED] T8565.075
    
    [GRAPHIC] [TIFF OMITTED] T8565.076
    
    [GRAPHIC] [TIFF OMITTED] T8565.077
    
    [GRAPHIC] [TIFF OMITTED] T8565.078
    
    [GRAPHIC] [TIFF OMITTED] T8565.079
    
    [GRAPHIC] [TIFF OMITTED] T8565.080
    
    [GRAPHIC] [TIFF OMITTED] T8565.081
    
    [GRAPHIC] [TIFF OMITTED] T8565.082
    
    [GRAPHIC] [TIFF OMITTED] T8565.083
    
    [GRAPHIC] [TIFF OMITTED] T8565.084
    
    [GRAPHIC] [TIFF OMITTED] T8565.085
    
    [GRAPHIC] [TIFF OMITTED] T8565.086
    
    [GRAPHIC] [TIFF OMITTED] T8565.087
    
    [GRAPHIC] [TIFF OMITTED] T8565.088
    
    [GRAPHIC] [TIFF OMITTED] T8565.089
    
    [GRAPHIC] [TIFF OMITTED] T8565.090
    
    [GRAPHIC] [TIFF OMITTED] T8565.091
    
    [GRAPHIC] [TIFF OMITTED] T8565.092
    
    [GRAPHIC] [TIFF OMITTED] T8565.093
    
    [GRAPHIC] [TIFF OMITTED] T8565.094
    
    [GRAPHIC] [TIFF OMITTED] T8565.095
    
    [GRAPHIC] [TIFF OMITTED] T8565.096
    
    [GRAPHIC] [TIFF OMITTED] T8565.097
    
    [GRAPHIC] [TIFF OMITTED] T8565.098
    
    [GRAPHIC] [TIFF OMITTED] T8565.099
    
    [GRAPHIC] [TIFF OMITTED] T8565.100
    
    [GRAPHIC] [TIFF OMITTED] T8565.101
    
    [GRAPHIC] [TIFF OMITTED] T8565.102
    
    [GRAPHIC] [TIFF OMITTED] T8565.103
    
    [GRAPHIC] [TIFF OMITTED] T8565.104
    
    [GRAPHIC] [TIFF OMITTED] T8565.105
    
    [GRAPHIC] [TIFF OMITTED] T8565.106
    
    [GRAPHIC] [TIFF OMITTED] T8565.107
    
    [GRAPHIC] [TIFF OMITTED] T8565.108
    
    [GRAPHIC] [TIFF OMITTED] T8565.109
    
    [GRAPHIC] [TIFF OMITTED] T8565.110
    
    [GRAPHIC] [TIFF OMITTED] T8565.111
    
    [GRAPHIC] [TIFF OMITTED] T8565.112
    
    [GRAPHIC] [TIFF OMITTED] T8565.113
    
    [GRAPHIC] [TIFF OMITTED] T8565.114
    
    [GRAPHIC] [TIFF OMITTED] T8565.115
    
    [GRAPHIC] [TIFF OMITTED] T8565.116
    
    [GRAPHIC] [TIFF OMITTED] T8565.117
    
    [GRAPHIC] [TIFF OMITTED] T8565.118
    
    [GRAPHIC] [TIFF OMITTED] T8565.119
    
    [GRAPHIC] [TIFF OMITTED] T8565.120
    
    [GRAPHIC] [TIFF OMITTED] T8565.121
    
    [GRAPHIC] [TIFF OMITTED] T8565.122
    
    [GRAPHIC] [TIFF OMITTED] T8565.123
    
    [GRAPHIC] [TIFF OMITTED] T8565.124
    
    [GRAPHIC] [TIFF OMITTED] T8565.125
    
    [GRAPHIC] [TIFF OMITTED] T8565.126
    
    [GRAPHIC] [TIFF OMITTED] T8565.127
    
    [GRAPHIC] [TIFF OMITTED] T8565.128
    
    [GRAPHIC] [TIFF OMITTED] T8565.129
    
    [GRAPHIC] [TIFF OMITTED] T8565.130
    
    [GRAPHIC] [TIFF OMITTED] T8565.131
    
    [GRAPHIC] [TIFF OMITTED] T8565.132
    
    [GRAPHIC] [TIFF OMITTED] T8565.133
    
    [GRAPHIC] [TIFF OMITTED] T8565.134
    
    [GRAPHIC] [TIFF OMITTED] T8565.135
    
    [GRAPHIC] [TIFF OMITTED] T8565.136
    
    [GRAPHIC] [TIFF OMITTED] T8565.137
    
    [GRAPHIC] [TIFF OMITTED] T8565.138
    
    [GRAPHIC] [TIFF OMITTED] T8565.139
    
    [GRAPHIC] [TIFF OMITTED] T8565.140
    
    [GRAPHIC] [TIFF OMITTED] T8565.141
    
    [GRAPHIC] [TIFF OMITTED] T8565.142
    
    [GRAPHIC] [TIFF OMITTED] T8565.143
    
    [GRAPHIC] [TIFF OMITTED] T8565.144
    
    [GRAPHIC] [TIFF OMITTED] T8565.145
    
    [GRAPHIC] [TIFF OMITTED] T8565.146
    
    [GRAPHIC] [TIFF OMITTED] T8565.147
    
    [GRAPHIC] [TIFF OMITTED] T8565.148
    
    [GRAPHIC] [TIFF OMITTED] T8565.149
    
    [GRAPHIC] [TIFF OMITTED] T8565.150
    
    [GRAPHIC] [TIFF OMITTED] T8565.151
    
    [GRAPHIC] [TIFF OMITTED] T8565.152
    
    [GRAPHIC] [TIFF OMITTED] T8565.153
    
    [GRAPHIC] [TIFF OMITTED] T8565.154
    
    [GRAPHIC] [TIFF OMITTED] T8565.155
    
    [GRAPHIC] [TIFF OMITTED] T8565.156
    
    [GRAPHIC] [TIFF OMITTED] T8565.157
    
    [GRAPHIC] [TIFF OMITTED] T8565.158
    
    [GRAPHIC] [TIFF OMITTED] T8565.159
    
    [GRAPHIC] [TIFF OMITTED] T8565.160
    
    [GRAPHIC] [TIFF OMITTED] T8565.161
    
    [GRAPHIC] [TIFF OMITTED] T8565.162
    
    [GRAPHIC] [TIFF OMITTED] T8565.163
    
    [GRAPHIC] [TIFF OMITTED] T8565.164
    
    [GRAPHIC] [TIFF OMITTED] T8565.165
    
    [GRAPHIC] [TIFF OMITTED] T8565.166
    
    [GRAPHIC] [TIFF OMITTED] T8565.167
    
    [GRAPHIC] [TIFF OMITTED] T8565.168
    
    [GRAPHIC] [TIFF OMITTED] T8565.169
    
    [GRAPHIC] [TIFF OMITTED] T8565.170
    
    [GRAPHIC] [TIFF OMITTED] T8565.171
    
    [GRAPHIC] [TIFF OMITTED] T8565.172
    
    [GRAPHIC] [TIFF OMITTED] T8565.173
    
    [GRAPHIC] [TIFF OMITTED] T8565.174
    
    [GRAPHIC] [TIFF OMITTED] T8565.175
    
    [GRAPHIC] [TIFF OMITTED] T8565.176
    
    [GRAPHIC] [TIFF OMITTED] T8565.177
    
    [GRAPHIC] [TIFF OMITTED] T8565.178
    
    [GRAPHIC] [TIFF OMITTED] T8565.179
    
    [GRAPHIC] [TIFF OMITTED] T8565.180
    
    [GRAPHIC] [TIFF OMITTED] T8565.181
    
    [GRAPHIC] [TIFF OMITTED] T8565.182
    
    [GRAPHIC] [TIFF OMITTED] T8565.183
    
    [GRAPHIC] [TIFF OMITTED] T8565.184
    
    [GRAPHIC] [TIFF OMITTED] T8565.185
    
    [GRAPHIC] [TIFF OMITTED] T8565.186
    
    [GRAPHIC] [TIFF OMITTED] T8565.187
    
    [GRAPHIC] [TIFF OMITTED] T8565.188
    
    [GRAPHIC] [TIFF OMITTED] T8565.189
    
    [GRAPHIC] [TIFF OMITTED] T8565.190
    
    [GRAPHIC] [TIFF OMITTED] T8565.191
    
    [GRAPHIC] [TIFF OMITTED] T8565.192
    
    [GRAPHIC] [TIFF OMITTED] T8565.193
    
    [GRAPHIC] [TIFF OMITTED] T8565.194
    
    [GRAPHIC] [TIFF OMITTED] T8565.195
    
    [GRAPHIC] [TIFF OMITTED] T8565.196
    
    [GRAPHIC] [TIFF OMITTED] T8565.197
    
    [GRAPHIC] [TIFF OMITTED] T8565.198
    
    [GRAPHIC] [TIFF OMITTED] T8565.199
    
    [GRAPHIC] [TIFF OMITTED] T8565.200
    
    [GRAPHIC] [TIFF OMITTED] T8565.201
    
    [GRAPHIC] [TIFF OMITTED] T8565.202
    
    [GRAPHIC] [TIFF OMITTED] T8565.203
    
    [GRAPHIC] [TIFF OMITTED] T8565.204
    
    [GRAPHIC] [TIFF OMITTED] T8565.205
    
    [GRAPHIC] [TIFF OMITTED] T8565.206
    
    [GRAPHIC] [TIFF OMITTED] T8565.207
    
    [GRAPHIC] [TIFF OMITTED] T8565.208
    
    [GRAPHIC] [TIFF OMITTED] T8565.209
    
    [GRAPHIC] [TIFF OMITTED] T8565.210
    
    [GRAPHIC] [TIFF OMITTED] T8565.211
    
    [GRAPHIC] [TIFF OMITTED] T8565.212
    
    [GRAPHIC] [TIFF OMITTED] T8565.213
    
    [GRAPHIC] [TIFF OMITTED] T8565.214
    
    [GRAPHIC] [TIFF OMITTED] T8565.215
    
    [GRAPHIC] [TIFF OMITTED] T8565.216
    
    [GRAPHIC] [TIFF OMITTED] T8565.217
    
    [GRAPHIC] [TIFF OMITTED] T8565.218
    
    [GRAPHIC] [TIFF OMITTED] T8565.219
    
    [GRAPHIC] [TIFF OMITTED] T8565.220
    
    [GRAPHIC] [TIFF OMITTED] T8565.221
    
    [GRAPHIC] [TIFF OMITTED] T8565.222
    
    [GRAPHIC] [TIFF OMITTED] T8565.223
    
    [GRAPHIC] [TIFF OMITTED] T8565.224
    
    [GRAPHIC] [TIFF OMITTED] T8565.225
    
    [GRAPHIC] [TIFF OMITTED] T8565.226
    
    [GRAPHIC] [TIFF OMITTED] T8565.227
    
    [GRAPHIC] [TIFF OMITTED] T8565.228
    
    [GRAPHIC] [TIFF OMITTED] T8565.229
    
    [GRAPHIC] [TIFF OMITTED] T8565.230
    
    [GRAPHIC] [TIFF OMITTED] T8565.231
    
    [GRAPHIC] [TIFF OMITTED] T8565.232
    
    [GRAPHIC] [TIFF OMITTED] T8565.233
    
    [GRAPHIC] [TIFF OMITTED] T8565.234
    
                                    

</pre></body></html>
